<html>
<title> - FEDERAL LAW ENFORCEMENT PERSONNEL IN THE POST SEPTEMBER 11 ERA: HOW CAN WE FIX AN IMBALANCED COMPENSATION SYSTEM?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




FEDERAL LAW ENFORCEMENT PERSONNEL IN THE POST SEPTEMBER 11 ERA: HOW CAN 
               WE FIX AN IMBALANCED COMPENSATION SYSTEM?

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON CIVIL SERVICE
                        AND AGENCY ORGANIZATION

                                and the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2003

                               __________

                           Serial No. 108-83

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

90-887              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

         Subcommittee on Civil Service and Agency Organization

                   JO ANN DAVIS, Virginia, Chairwoman
TIM MURPHY, Pennsylvania             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                MAJOR R. OWENS, New York
MARK E. SOUDER, Indiana              CHRIS VAN HOLLEN, Maryland
ADAH H. PUTNAM, Florida              ELEANOR HOLMES NORTON, District of 
NATHAN DEAL, Georgia                     Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Ron Martinson, Staff Director
       B. Chad Bungard, Deputy Staff Director and Senior Counsel
                          Chris Barkley, Clerk
                     Tony Haywood, Minority Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Marc Wheat, Staff Director
             Nicolas P. Coleman, Professional Staff Member
                         Nicole Garrett, Clerk
            Tony Haywood, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2003....................................     1
Statement of:
    Bonner, T.J., president, National Border Patrol Council......   232
    Filner, Hon. Robert, a Representative in Congress from the 
      State of California........................................    84
    Kelley, Colleen M., president, National Treasury Employees 
      Union; Ignatius Gentile, president, Department of Homeland 
      Security Council 117, American Federation of Government 
      Employees; Nancy Savage, president, Federal Bureau of 
      Investigation Agents Association; Richard Gallo, former 
      president, Federal Law Enforcement Officers Association; 
      and Louis P. Cannon, president, District of Columbia State 
      Lodge, chairman, Federal Officer's Committee, Fraternal 
      Order of Police............................................   165
    King, Hon. Peter, a Representative in Congress from the State 
      of New York................................................    76
    Rogers, Hon. Michael, a Representative in Congress from the 
      State of Michigan..........................................    85
    Simms, Joanne, Deputy Assistant Attorney General for Human 
      Resources and Administration, Department of Justice; Norman 
      J. Rabkin, Managing Director, Homeland Security and 
      Justice, U.S. General Accounting Office; Donald J. 
      Winstead, Deputy Associate Director, Center for Pay and 
      Performance Policy, Office of Personnel Management; and Kay 
      Frances Dolan, Director of Human Relations Policy, 
      Department of Homeland Security............................    98
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland..........................................   241
Letters, statements, etc., submitted for the record by:
    Bonner, T.J., president, National Border Patrol Council, 
      prepared statement of......................................   234
    Cannon, Louis P., president, District of Columbia State 
      Lodge, chairman, Federal Officer's Committee, Fraternal 
      Order of Police, prepared statement of.....................   221
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................   249
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia:
        Memo dated July 22, 2003.................................    15
        Prepared statement of....................................     4
    Dolan, Kay Frances, Director of Human Relations Policy, 
      Department of Homeland Security, prepared statement of.....   151
    Gallo, Richard, former president, Federal Law Enforcement 
      Officers Association, prepared statement of................   199
    Gentile, Ignatius, president, Department of Homeland Security 
      Council 117, American Federation of Government Employees, 
      prepared statement of......................................   213
    Kelley, Colleen M., president, National Treasury Employees 
      Union, prepared statement of...............................   168
    King, Hon. Peter, a Representative in Congress from the State 
      of New York, prepared statement of.........................    78
    McHugh, Hon. John M., a Representative in Congress from the 
      State of New York, prepared statement of...................     8
    Rabkin, Norman J., Managing Director, Homeland Security and 
      Justice, U.S. General Accounting Office, prepared statement 
      of.........................................................   111
    Rogers, Hon. Michael, a Representative in Congress from the 
      State of Michigan, prepared statement of...................    87
    Savage, Nancy, president, Federal Bureau of Investigation 
      Agents Association, prepared statement of..................   185
    Simms, Joanne, Deputy Assistant Attorney General for Human 
      Resources and Administration, Department of Justice, 
      prepared statement of......................................   101
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................    11
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland..........................................   243
    Winstead, Donald J., Deputy Associate Director, Center for 
      Pay and Performance Policy, Office of Personnel Management, 
      prepared statement of......................................   137

 
FEDERAL LAW ENFORCEMENT PERSONNEL IN THE POST SEPTEMBER 11 ERA: HOW CAN 
               WE FIX AN IMBALANCED COMPENSATION SYSTEM?

                              ----------                              


                        WEDNESDAY, JULY 23, 2003

        House of Representatives, Subcommittee on Civil 
            Service and Agency Organization, joint with the 
            Subcommittee on Criminal Justice, Drug Policy 
            and Human Resources, Committee on Government 
            Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jo Ann Davis 
(chairwoman of the Subcommittee on Civil Service and Agency 
Organization) presiding.
    Present from the Subcommittee on Civil Service and Agency 
Organization: Representatives Davis of Virginia, Mica, Souder, 
Davis of Illinois, Van Hollen and Norton.
    Present from the Subcommittee on Criminal Justice, Drug 
Policy and Human Resources: Representatives Souder, McHugh, 
Mica, Davis of Virginia, Carter, Cummings, Davis of Illinois 
and Norton.
    Staff present: Ron Martinson, staff director; Chad Bungard, 
deputy staff director and chief counsel; Vaughn Murphy, 
legislative counsel; Chris Barkley, legislative assistant/
clerk; Robert White, director of communications; John Landers, 
detailee from OPM; Stuart Sims, legal intern; Steven Isbister 
and Taylor Copus, interns; Tony Haywood, minority counsel; 
Christopher Lu, minority deputy chief counsel; Tania Shand, 
minority professional staff member; Earley Green, minority 
chief clerk; and Teresa Coufal, minority assistant clerk.
    Mrs. Davis of Virginia. The Subcommittee on Civil Service 
and Agency Organization and the Subcommittee on Criminal 
Justice, Drug Policy and Human Resources will come to order.
    We are going to have a series of votes somewhere around 
10:30, so we are going to go ahead and start; and hopefully by 
the time I finish my opening statement we will have the rest of 
the panelists. If not, we will start with the distinguished 
Members that we have.
    I want to thank you all for being here, and especially I 
want to thank Chairman Mark Souder for agreeing to hold this 
joint-hearing. Unfortunately, he is called to the floor, but he 
will be here shortly.
    Law enforcement compensation is a very important subject; 
and there is great interest in today's hearing, as evidenced by 
the number of witnesses that we've scheduled. Due to time 
constraints, I would remind witnesses that their entire 
prepared statements will be entered into the record and ask 
them to keep their opening statements to 5 minutes or less if 
possible. We're also going to ask that only the chairman and 
the ranking members of the subcommittees make oral statements, 
and other Members who have statements will be submitted into 
the record.
    I want to begin by thanking everyone for being here today 
and especially again thank Chairman Mark Souder for agreeing to 
hold this joint hearing. Our subject today is a vitally 
important topic, one that is of great concern to me: How do we 
make sure we are paying our Federal law enforcement agents 
properly?
    On one hand, it is impossible to address adequate 
compensation for people who put their lives on the line for the 
American public every day. There's no proper monetary reward 
for such work. But, at the same time, we must recognize that 
members of the FBI, Border Patrol, Customs and Immigration, 
Secret Service and all our other Federal law enforcement 
agencies do not live and work in a monetary vacuum. There are 
thousands of local and State police forces and sheriff's 
offices out there, and there is a market for skilled officers, 
agents and criminal investigators. In this area, as in so many 
others, we must make sure that the Federal Government is not 
falling behind in the race for talent.
    Several factors complicate the question of pay for Federal 
law enforcement officers. First is the question of whether the 
current pay scale is meeting the needs of law enforcement 
officers in high-cost of living areas such as San Francisco, 
southern California, Boston, New York and the Washington, DC, 
area. There is strong anecdotal evidence that we are having 
difficulty keeping or recruiting talented officers in those 
high-cost metropolitan areas. This is very worrisome, 
especially given the importance of our big cities in fighting 
crime and terrorism.
    Second, there is a larger question of who is considered a 
law enforcement officer, who is not and who should be. Federal 
law enforcement officers [LEOs], receive enhanced pay and 
retirement benefits. FBI agents, DEA agents, Customs criminal 
investigators, Border Patrol agents and Secret Service criminal 
investigators are among those defined as LEOs. Customs 
inspectors, Immigration inspectors and Department of Defense 
police are among those who are not.
    The benefits given to ``law enforcement officers'' began 
with FBI agents in 1947 and were quickly expanded to include 
any Federal employee whose position primarily deals with the 
investigation, apprehension or detention. It now also includes 
anyone who comes in frequent and direct contact with Federal 
inmates and, in some cases, agents who protect Federal 
officials.
    The designation of law enforcement officer, however, is 
clearly a flawed term. The enhanced benefits were--and are--a 
management tool designed to strike a balance between helping 
certain agencies maintain a young and vigorous work force while 
compensating those agents adequately for being required to 
retire early.
    But the end result is that many people who are clearly law 
enforcement officers by the plain meaning of that term do not 
meet the standards of law enforcement officer in terms of 
earning these enhanced benefits. That is confusing--if not 
insulting--to a Federal agent who carries a gun and who risks 
his life everyday but is told that he or she does not deserve 
the same benefits that many other officers receive.
    Fortunately, the creation of the Homeland Security 
Department crystallizes these issues in a way that may lend 
itself to reform. To site just one example, the merging 
together of Customs inspectors from the former Customs Service, 
Immigration inspectors from the former INS and the agriculture 
inspectors from APHIS into the new Bureau of Immigration and 
Customs Enforcement has created situation where coworkers 
progress up the GS scale differently and work under different 
overtime and availability rules. Homeland Security also has a 
large number of those Federal agents who are not considered law 
enforcement officers but who do have arrest authority.
    DHS is working with the Office of Personnel Management to 
determine a solution to these disparities and is scheduled to 
come back by the end of the year with some recommendations, a 
process that I hope will help us solve some of these complex 
problems.
    We are joined by the ranking member of Chairman Souder's 
Subcommittee on Criminal Justice and Drug Policy, and I would 
like to recognize Elijah Cummings to see if he would like to 
give an opening statement.
    [The prepared statement of Hon. Jo Ann Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.001
    
    [GRAPHIC] [TIFF OMITTED] T0887.002
    
    Mr. Cummings. Thank you very much, Madam Chairlady.
    Chairwoman Davis and Chairman Souder, the Federal 
Government's response to the attacks of September 11, 2001, and 
the readjustment of agency priorities to address future threats 
to our Nation's security have involved major changes for 
civilian and Federal employees. Personnel who perform law 
enforcement functions have especially been affected.
    In hearings before the Criminal Justice Subcommittee, we 
have heard testimony concerning the massive amounts of overtime 
work by Customs and Border Patrol officers manning our Nation's 
borders and ports of entry in the months following the attacks. 
We know of the migration of law enforcement personnel to the 
Transportation Safety Administration as well as the 
congressionally mandated transfer of 22 agencies to the 
Department of Homeland Security.
    Not all of these employees receive the same compensation 
and benefits. For example, there are stark differences in pay 
among the 13 uniformed Federal police agencies examined in the 
testimony we will hear from GAO on this subject.
    Of particular interest to the committee is the disparity in 
the retirement benefits among different classes of Federal 
employees who perform similar functions. In order to provide 
for a young, vigorous personnel pool for Federal law 
enforcement agencies, Congress enacted--required early 
retirement for positions defined as, ``law enforcement 
officers.'' As compensation for having to retire earlier than 
other Federal employees, LEOs accrue benefits at a faster rate 
than other Federal employees. Once retired, they receive annual 
cost of living adjustments, regardless of age. By contrast, 
other Federal employees do not receive COLA's under the Federal 
employee's retirement system until age 62.
    For purposes of determining retirement benefits, the U.S. 
Code defines a law enforcement officer as an employee the 
duties of whose position are primarily the investigation, 
apprehension or detention of individuals suspected or convicted 
of offenses against the criminal laws of the United States of 
America. Some employees who have the power of arrest, the 
authority to carry firearms and duties to enforce laws are not 
authorized or required to investigate, apprehend or detain 
individuals. The employees are not classified as law 
enforcement officers and do not receive enhanced law 
enforcement retirement benefits.
    Even before the September 11 attacks, inequities in our 
Federal employees benefit system existed. Meeting the 
challenges of homeland security has brought into sharper focus 
the importance of recruitment and retention with regard to 
certain agencies.
    There have been a number of proposals introduced in the 
House and Senate to remedy the problem agencies face in the 
area of recruitment and retention. We will hear from the 
sponsors of several of those bills today. These are not simple 
issues to resolve, and no legislation will provide us a silver 
bullet.
    Today's hearing also offers us a valuable opportunity to 
hear about ongoing efforts within agencies to tackle the post-
September 11 challenges of recruiting and retaining highly 
competent and motivated work force personnel and the extent to 
which they are using the tools already at their disposal. In 
many cases, the employees are talking about help to form our 
first line of defense on the war against terror. Our Nation's 
security will depend in part upon our ability to recruit and 
retain employees to perform vital homeland security functions.
    With that, Madam Chairlady, I look forward to hearing from 
our witnesses today; and I thank you.
    Mrs. Davis of Virginia. Thank you, Mr. Cummings.
    I would like to recognize Mr. McHugh from New York for an 
opening statement.
    Mr. McHugh. Thank you, Madam Chairwoman. I do have a 
prepared statement, Madam Chairwoman, that I ask be submitted 
in its entirety for the record without objection.
    Mrs. Davis of Virginia. Without objection.
    Mr. McHugh. I will make a few brief comments.
    First of all, I want to add my words of appreciation and 
compliments to you, Madam Chairwoman, and Chairman Souder for 
recognizing the very important nature of this challenge.
    I am hopeful, as I know you are, that the testimony we'll 
hear today from our esteemed colleagues, my good friend and 
kind of neighbor from the great ``island of long,'' as in Long 
Island, Mr. King; Mr. Filner, who has been working on this 
issue for quite some time; and I have been honored to work with 
his permission this year on H.R. 2442, the Law Enforcement 
Officers Equity Act, which tries to respond, I think, in a very 
effective way to these problems. He's a leader. And Mr. Rogers, 
a good friend and someone who obviously is deeply concerned 
with this issue, as we all are.
    I have the distinct pleasure of representing a district 
that borders both the Canadian provinces of Ontario and Quebec, 
and I have four designated border crossings and literally 
hundreds of miles of undesignated crossings across the waters 
of the St. Lawrence River and Lake Ontario. Part of that 
distinct pleasure is the opportunity and honor to represent 
many of these fine, dedicated, hard-working Federal officials 
that thankfully are the topic of this hearing here today. 
Whether they be in Customs or border protection or Bureau of 
Immigration enforcement inspectors again and Customs, these are 
folks who put their lives on the line for us.
    As the hearing title suggests, September 11 has certainly 
caused us to take a new focus on that reality that I agree with 
Mr. Cummings that in fact existed before September 11. But if 
we can take that devastating day and at least begin to correct 
some oversights with respect to these fine officers that has 
gone on too long, at least we will have learned a very valuable 
lesson.
    I look forward to the testimony of our colleagues, Madam 
Chairwoman; and again I thank you for your leadership and look 
forward to the testimony.
    Mrs. Davis of Virginia. Thank you, Mr. McHugh.
    [The prepared statement of Hon. John M. McHugh follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.003
    
    Mrs. Davis of Virginia. I would like to again say thank you 
to Chairman Souder for agreeing to hold this joint hearing, and 
I would like to recognize Chairman Souder for an opening 
statement.
    Mr. Souder. Thank you, Chairman Davis.
    Today's hearing addresses one of the most significant 
issues facing the Federal Government: how to bring the law 
enforcement pay system into balance. Resolving this problem is 
not simply a matter of ensuring fairness to the thousands of 
Federal law enforcement agents who labor to protect us everyday 
is absolutely imperative to our national security. I therefore 
commend the distinguished chairwoman of the Civil Service and 
Agency Organization Subcommittee, Mrs. Jo Ann Davis, for 
joining me in convening this hearing.
    I want to add a personal note that last year and the year 
before, particularly last year, we tried to work with Chairman 
Wolf on the Commerce, State and Justice appropriations bill to 
address this matter and worked closely with Chairman Weldon to 
try to get a waiver. We decided to forego this process and 
focus on it. And when Congresswoman Davis took over the 
subcommittee she has been focused in trying to address the 
question. We saw this particularly under on-border patrol where 
we were losing agents faster than we could add them. When 
Congress was mandating that we add border control, here we were 
losing more than we could add because of some of these 
inequities, which is what Chairman Wolf focused on, this 
committee focused on and the gentleman before us focused on 
this issue.
    I don't think I exaggerate when I say the present-day law 
enforcement pay system is a hopelessly confusing labyrinth of 
outdated and often irrational rules and regulations. Indeed, it 
is probably misleading to call it a system. It is really just 
the result of decades of haphazard and uncoordinated 
rulemaking. The rapid growth of the Federal law enforcement 
work force over the second half of the 20th century was not 
matched by a careful development and reformulation of civil 
service pay scales and rules. Instead, both Congress and the 
executive branch applied old rules or drafted new ones on an ad 
hoc basis to deal with new or expanded law enforcement 
agencies.
    This became abundantly clear to my subcommittee, the 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources, during the last Congress when we held a series of 
hearings on Federal law enforcement and border security. Our 
study revealed these three key issues that must be addressed:
    First, we must come up with a principled set of rules for 
disparities in retirement pay. At present, the so-called law 
enforcement retirement pay system created decades ago applies 
to some law enforcement officials but not to others, often with 
little or no justification. Fairness to our law enforcement 
agents demands that the Congress and the administration develop 
a rational, uniform retirement pay system.
    Second, it is clear that the locality pay adjustment 
system, which was intended to ensure that agents living in 
areas with high costs of living be sufficiently compensated, 
must be updated. At present, the system simply fails to take 
into account the rapid rise in housing and related costs in 
many key areas. For example, the cost of living in California, 
our most populous State, is driving many agents either to seek 
a transfer to another location or to leave Federal employment 
altogether. Many of the places which most need Federal law 
enforcement protection--major population centers, busy port 
cities and border regions--are often the most expensive to 
live. The Federal Government must find a way to ensure that 
local costs do not leave vital areas unprotected.
    Finally, we must ensure that individual Federal agencies, 
in their eagerness to hire and expand their ranks, do not 
simply poach on other Federal and even State and local law 
enforcement agencies. As we saw in the months after September 
11, 2001, the Federal sky marshals program expanded quite 
rapidly but at the expense of the Border Patrol, the Customs 
Service and numerous other agencies. The higher pay and 
benefits offered by the sky marshals program simply could not 
be matched by these other agencies, leaving many of them 
seriously depleted at a time when they and the American people 
they protect could least afford it. Congress and the 
administration must ensure that we don't end up playing another 
game of agency musical chairs. Rather, we must seek ways to 
expand the entire pool of law enforcement agents.
    This hearing will allow us to address these and other 
related issues, and I again thank Chairwoman Davis for her 
leadership for convening it. I commend the various Members of 
the House and Senate here to testify today, all of whom have 
introduced legislation that could help resolve some of these 
problems. I further thank the members of the executive branch 
and the organizations representing our Federal law enforcement 
agents for taking the time to join us, and I look forward to 
your testimony.
    Mrs. Davis of Virginia. Thank you, Chairman Souder.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.004
    
    [GRAPHIC] [TIFF OMITTED] T0887.005
    
    [GRAPHIC] [TIFF OMITTED] T0887.006
    
    Mrs. Davis of Virginia. I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    I ask unanimous consent to enter into the record a 
memorandum that was sent to members of the Subcommittee on 
Civil Service and Agency Organization regarding law enforcement 
compensation and retirement issues. Without objection, it is so 
ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.007
    
    [GRAPHIC] [TIFF OMITTED] T0887.008
    
    [GRAPHIC] [TIFF OMITTED] T0887.009
    
    [GRAPHIC] [TIFF OMITTED] T0887.010
    
    [GRAPHIC] [TIFF OMITTED] T0887.011
    
    [GRAPHIC] [TIFF OMITTED] T0887.012
    
    [GRAPHIC] [TIFF OMITTED] T0887.013
    
    [GRAPHIC] [TIFF OMITTED] T0887.014
    
    [GRAPHIC] [TIFF OMITTED] T0887.015
    
    [GRAPHIC] [TIFF OMITTED] T0887.016
    
    [GRAPHIC] [TIFF OMITTED] T0887.017
    
    [GRAPHIC] [TIFF OMITTED] T0887.018
    
    [GRAPHIC] [TIFF OMITTED] T0887.019
    
    [GRAPHIC] [TIFF OMITTED] T0887.020
    
    [GRAPHIC] [TIFF OMITTED] T0887.021
    
    [GRAPHIC] [TIFF OMITTED] T0887.022
    
    [GRAPHIC] [TIFF OMITTED] T0887.023
    
    [GRAPHIC] [TIFF OMITTED] T0887.024
    
    [GRAPHIC] [TIFF OMITTED] T0887.025
    
    [GRAPHIC] [TIFF OMITTED] T0887.026
    
    [GRAPHIC] [TIFF OMITTED] T0887.027
    
    [GRAPHIC] [TIFF OMITTED] T0887.028
    
    [GRAPHIC] [TIFF OMITTED] T0887.029
    
    [GRAPHIC] [TIFF OMITTED] T0887.030
    
    [GRAPHIC] [TIFF OMITTED] T0887.031
    
    [GRAPHIC] [TIFF OMITTED] T0887.032
    
    [GRAPHIC] [TIFF OMITTED] T0887.033
    
    [GRAPHIC] [TIFF OMITTED] T0887.034
    
    [GRAPHIC] [TIFF OMITTED] T0887.035
    
    [GRAPHIC] [TIFF OMITTED] T0887.036
    
    [GRAPHIC] [TIFF OMITTED] T0887.037
    
    [GRAPHIC] [TIFF OMITTED] T0887.038
    
    [GRAPHIC] [TIFF OMITTED] T0887.039
    
    [GRAPHIC] [TIFF OMITTED] T0887.040
    
    [GRAPHIC] [TIFF OMITTED] T0887.041
    
    [GRAPHIC] [TIFF OMITTED] T0887.042
    
    [GRAPHIC] [TIFF OMITTED] T0887.043
    
    [GRAPHIC] [TIFF OMITTED] T0887.044
    
    [GRAPHIC] [TIFF OMITTED] T0887.045
    
    [GRAPHIC] [TIFF OMITTED] T0887.046
    
    [GRAPHIC] [TIFF OMITTED] T0887.047
    
    [GRAPHIC] [TIFF OMITTED] T0887.048
    
    [GRAPHIC] [TIFF OMITTED] T0887.049
    
    [GRAPHIC] [TIFF OMITTED] T0887.050
    
    [GRAPHIC] [TIFF OMITTED] T0887.051
    
    [GRAPHIC] [TIFF OMITTED] T0887.052
    
    [GRAPHIC] [TIFF OMITTED] T0887.053
    
    [GRAPHIC] [TIFF OMITTED] T0887.054
    
    [GRAPHIC] [TIFF OMITTED] T0887.055
    
    [GRAPHIC] [TIFF OMITTED] T0887.056
    
    [GRAPHIC] [TIFF OMITTED] T0887.057
    
    [GRAPHIC] [TIFF OMITTED] T0887.058
    
    [GRAPHIC] [TIFF OMITTED] T0887.059
    
    [GRAPHIC] [TIFF OMITTED] T0887.060
    
    [GRAPHIC] [TIFF OMITTED] T0887.061
    
    [GRAPHIC] [TIFF OMITTED] T0887.062
    
    [GRAPHIC] [TIFF OMITTED] T0887.063
    
    [GRAPHIC] [TIFF OMITTED] T0887.064
    
    [GRAPHIC] [TIFF OMITTED] T0887.065
    
    [GRAPHIC] [TIFF OMITTED] T0887.066
    
    [GRAPHIC] [TIFF OMITTED] T0887.067
    
    Mrs. Davis of Virginia. Finally, I ask unanimous consent 
that a memorandum prepared by my staff be entered into the 
record within 14 days of this hearing. The memorandum will 
detail the lessons learned from the trip that my subcommittee 
staff took to California last month to speak with Federal law 
enforcement officials. The minority staff will have 14 
additional days to submit its views. Without objection, so 
ordered.
    I would like to thank our very distinguished first panel 
consisting of Members of Congress and to say that we may be 
joined by a couple of gentlemen from the other side of the 
Capitol, Senator Dodd and Senator Schumer. It is clear that 
this issue is quite important to a large number of people by 
the number of folks that called and wanted to be witnesses. 
Since we have three large panels, I will urge everyone to 
please wrap up in 5 minutes or less so we can have plenty of 
time for everyone.
    The subcommittee is fortunate to have four Members of the 
House: Representative Peter King from New York, Representative 
Bob Filner from California, Representative Mike Rogers from 
Michigan and the fourth Member, who should be joining us 
shortly, Representative Chris Van Hollen, who is also a member 
of the subcommittee, from Maryland.
    I would like to thank you first, Representative King, for 
coming; and we will begin with you.

STATEMENT OF HON. PETER KING, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. King. Thank you very much, Madam Chairlady, Chairman 
Souder, Mr. Cummings, Mr. McHugh. I will take your admonition, 
and I will submit my statement in the record and make some very 
brief remarks on an issue which is extremely important to me.
    I want to identify myself with all of the comments that 
were made by the members on the panel, especially Chairman 
Souder when he was talking about the problems resulting from 
the pay differentials. I certainly see it in New York. And, as 
Chairman Souder said, the areas of the country that most 
require cooperation between Federal law enforcement officials 
and local law enforcement officials are often the most 
expensive and the highest cost-of-living.
    My father was a New York City police officer for over 30 
years so I have a some idea how tough the job is, both at the 
Federal and at the local level. I also realize how important 
morale is. I also realize that since September 11 how local 
police departments all over the country are actively recruiting 
to get the very best they can. Their pay scales often are much 
higher than what is being paid at the Federal level, and yet 
there is extraordinary pressure being put on our Federal law 
enforcement.
    As Congressman McHugh was pointing out, the whole idea of 
border patrols, the FBI, Secret Service, all of the Federal law 
enforcement officials whose job was tough enough on September 
10, 2001, has increased exponentially since September 11. If we 
are going to have the quality Federal law enforcement we need, 
if we are going to maintain the morale that's needed to have 
effective Federal law enforcement and if we are not going to be 
losing people by attrition or going to other agencies, I 
believe it is absolutely essential we update the locality pay 
adjustments.
    As Chairman Souder said, we have gone more than a decade 
where really nothing of consequence has been done. Instead, we 
have this hodgepodge of different regulations, different rules.
    Certainly from Federal law enforcement officials I have 
spoken to there is a definite decline in morale. I know of 
cases in the New York area where Federal law enforcement 
officials have left to join local police departments. I can 
certainly understand it, but it is something we can ill afford 
at the Federal level, to be losing this type of talent and this 
type of ability.
    We see it here in our own Capitol Police. You saw the hours 
they were putting in after September 11. So I would ask you 
certainly to give my legislation consideration.
    Obviously, there is other legislation that's needed. 
Something has to be done. The issue of locality pay adjustments 
just has to be confronted and has to be met. I am proud there 
are 225 cosponsors of my legislation and, I think, 33 members 
of the Government Reform Committee. It does not have to be one 
particular bill or one particular piece of legislation. The 
important thing is we move forward.
    My colleagues have important things to say. There are other 
Members who feel strongly about this issue, and I know Senator 
Dodd has introduced a companion bill to mine in the Senate. He 
certainly feels strongly about this.
    Again, this is a bipartisan issue. It is an issue that 
affects our entire country. So I would just ask that this 
legislation be considered.
    I thank you for chairing this hearing, Chairman Souder for 
his work, and I yield back the balance of my time.
    Mrs. Davis of Virginia. Thank you, Representative King.
    [The prepared statement of Hon. Peter King follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.068
    
    [GRAPHIC] [TIFF OMITTED] T0887.069
    
    [GRAPHIC] [TIFF OMITTED] T0887.070
    
    [GRAPHIC] [TIFF OMITTED] T0887.071
    
    [GRAPHIC] [TIFF OMITTED] T0887.072
    
    [GRAPHIC] [TIFF OMITTED] T0887.073
    
    Mrs. Davis of Virginia. Representative Filner, you will be 
recognized for 5 minutes.

 STATEMENT OF HON. ROBERT FILNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Madam Chairwoman, for your 
commitment to our law enforcement community throughout the 
Nation.
    I especially appreciate your opening remarks, Madam 
Chairwoman; and I would underline them with a tragic irony. 
That is, when Customs inspectors or INS inspectors--at least 
that is what they used to call them before the new agencies--
are killed in the line of duty, their names are inscribed here 
in Washington on the National Law Enforcement Officers 
Memorial, which I know you have all been to. It is a very 
moving memorial. Their names are inscribed as law enforcement 
officers when they die.
    When they are alive, we don't call them law enforcement 
officers; and that is a tragic irony I think we should correct. 
My bill, introduced jointly with Mr. McHugh of New York, which 
I greatly appreciate, is simply stated: Give law enforcement 
status to law enforcement officers.
    Many Federal officials, as you outlined in your opening 
remarks, all of you, are classified as law enforcement officers 
[LEOs], with certain salary and retirement benefits, but there 
are other officers who are trained to carry weapons, who wear 
body armor, who face the same daily risk as law enforcement 
officers who are just not so classified. These officers may be 
in the Bureau of Customs and Border Protection and Bureau of 
Immigration Customs Enforcement inspectors at the Department of 
Homeland Security. There are U.S. Mint police officers, U.S. 
Internal Revenue Service officers in two dozen other agencies. 
They are not eligible, as you know, for early retirement and 
other benefits designed to maintain a young and vigorous law 
enforcement work force. We need to combat those who pose risks 
to our society.
    As Mr. McHugh represents the New York-Canadian border, my 
district encompasses the entire California-Mexico border and is 
home to two of the busiest crossings in the world. So both of 
us are very aware of the work that Border and Customs 
inspectors do at our borders. They wear bulletproof vests, they 
carry firearms, and they have to use them. They are subject to 
the same risk as other officers with whom they serve by side by 
side and who do have the benefits of that law enforcement 
status.
    I know you have probably had the same experience. I have 
met with severely injured inspectors who had to face border 
shoot-outs or border drive-throughs, masked attempt to cross 
the border in armed vehicles. I have met with families of 
inspectors who were killed in the line of duty.
    This is something, I think, we have to correct; and H.R. 
2442 I think makes important strides to do that. Any cost that 
is created by this act--and this is very important--is offset 
by the savings and training costs and increased revenue 
collection.
    I know that you have mentioned that also, that if we have 
good morale, if we have good benefits, if we have good salary, 
if we have a good workplace environment, we do not have to go 
through the same training costs as we would--as this group may 
move on to better jobs. So a 20-year retirement for those 
employees will reduce that turnover, increase the yield, 
decrease recruitment, enhance the retention of a well-trained 
and experienced work force.
    Madam Chairwoman, when this bill was introduced last year, 
we had 212 cosponsors, a bipartisan group, including yourself, 
Madam Chairwoman. I hope we can end the tragic irony that I 
started off with. Let us make sure that those who do law 
enforcement work have that classification.
    Mrs. Davis of Virginia. Thank you, Representative Filner.
    Representative Rogers, you will be recognized for 5 
minutes.

STATEMENT OF HON. MICHAEL ROGERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Madam Chairwoman. Thank you for your 
leadership on this issue, in bringing this to the forefront. 
Very important. Thanks to my fellow panel members as well and 
all the members on the committee. Thank you for your concern.
    I had the great fortune and privilege to serve as a Special 
Agent with the FBI for over 5 years. I know these people as 
friends and as colleagues, and now they are spread--all the 
people I worked with are all over the country--New York, Los 
Angeles and friends here today in Washington, DC. And one of 
the things like the FBI and Federal law enforcement agencies, 
there is a very strong lure. I mean, you get to go in and 
defend America, you get to put bad folks in jail, and that is a 
strong lure for recruiting.
    When you are going after the best and the brightest, that 
is what they sell. They tell you are going to be a special 
breed of a Federal law enforcement officer, to do great things 
for your country. Pretty powerful stuff.
    Well, that strong lure is often hit with a brick wall when 
you get that first assignment. By the way, before you get in, 
you think you'll get through anything. You can get through the 
training school and you can finally get those credentials, you 
will get through anything. But what these agents soon find is 
that the financial realities of this are pretty stark.
    What I wanted to do is talk just a minute and actually read 
some actual comments from agents all around the country and the 
things that they are suffering; and these are dedicated people 
who want to continue in the FBI, Customs and other agencies. 
They are just hit with the very harsh reality of the pay 
disparity that they are facing in many of these areas.
    One is a GS-10, step 2. He is assigned to the San Francisco 
division: ``I am seriously leaving the Bureau, but I am waiting 
until I go off probation. I will try to get out of this 
division any way I can--a specialty, a hardship, headquarters--
any way that I possibly can. My decision is strongly reflected 
by my inability to purchase or invest in property or my future 
savings in retirement. I pack my lunch every day. Eating in a 
restaurant is absolutely nonexistent.''
    Unfortunately, that is the case for many of those agents 
who are just scraping by, want to do what they are doing, they 
love the work, they're very patriotic, but it's a bit 
embarrassing to go home and find no extra cash.
    ``I am a GS-13, step 10, assigned to the San Francisco 
division. Speaking from experience, it does not matter how 
important or what the quality of work you are doing is if you 
are worried about how you are going to pay your bills.''
    GS-14, assigned to Newark, ``happy with the job, but really 
tired of the long days and the long commutes to the office. 
Most embarrassing, after 16 years in the Bureau, having to 
borrow $20,000 from close relatives just to be able to purchase 
a house in commuting distance within the Newark office 
division.''
    ``I am a GS-14 assigned to Quantico. I joined the Bureau 
for the challenge and because it was the best law enforcement 
agency in the world. My morale is not good because of the cost 
of college that I have to try to save for. I am barely able to 
afford a new refrigerator. Mine is 20 years old. Low pay is a 
high reflection of my low morale. I have not been able to 
contribute to my savings account since I have been in the 
Washington, DC, area. I am certainly not desperate, but I 
certainly am not in the upper class when it comes to income, as 
statistics show.''
    ``I am a GS-10 assigned to the Boston division. As it is, 
we absolutely have no money left at the end of each 2-week 
period and have had to ask our mortgage company to put our 
payments on hold until we can sell our house from the city I 
processed out of. Our family, including our children, are now 
living with my in-laws. It is mortifying to have to sponge off 
our relatives when you are our age.''
    Many of these agencies are attempting to recruit older 
agents with experience and a certain level of skill set, and we 
are putting a lot of pressure on these folks to come into the 
Bureau and other Federal law enforcement agencies because we 
need their talent. The country needs them at this hour.
    When that agent, who is asking the mortgage company to hold 
off on his payments, is working long hours, his wife is at home 
trying to get the house in order and he is not coming home, I 
guarantee it, he is working weekends trying to defend America, 
it is only right we step up to the plate and say we understand 
that you will not be wealthy but we have the obligation to make 
sure that they do not run into these life problems as defenders 
of the United States of America.
    I appreciate your leadership and hope we can have some 
quick action on this matter.
    Thank you, Madam Chairwoman.
    Mrs. Davis of Virginia. Thank you, Representative Rogers.
    [The prepared statement of Hon. Michael Rogers follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.074
    
    [GRAPHIC] [TIFF OMITTED] T0887.075
    
    [GRAPHIC] [TIFF OMITTED] T0887.076
    
    [GRAPHIC] [TIFF OMITTED] T0887.077
    
    [GRAPHIC] [TIFF OMITTED] T0887.078
    
    [GRAPHIC] [TIFF OMITTED] T0887.079
    
    [GRAPHIC] [TIFF OMITTED] T0887.080
    
    [GRAPHIC] [TIFF OMITTED] T0887.081
    
    [GRAPHIC] [TIFF OMITTED] T0887.082
    
    [GRAPHIC] [TIFF OMITTED] T0887.083
    
    Mrs. Davis of Virginia. And I want to thank you, 
Representative Filner, for your work on this issue.
    We have a series of three votes, so we will recess--we 
generally don't ask questions of the Members, but if a Member 
wouldn't mind, the chairman has a question.
    Mr. Souder. Mr. Rogers, I wonder if you have additional 
letters and things that would be helpful for the record. I 
would appreciate if you could insert them. I think it helps 
build a case. Also, anything that would relate to instances--I 
know in your written testimony and you referred in the past to 
this overtime pay question, anything that might be directly 
related to that, of what, at the practical level, to an agent. 
As somebody who has done this yourself you may be less 
constrained in the ability to say, oh, well, we had to back off 
of this, or I had turn this case over, or I have heard this. So 
if we could have that for the record on the overtime pay, 
because it is very difficult. Nobody wants to acknowledge that 
this may actually affect cases, but I am interested as to how 
does it cutoff.
    Mr. Rogers. I'll be happy to do that.
    You have to remember the pressure. The agent comes home at 
the end of the day, and his wife is not all that amused or visa 
versa and puts a lot of pressure on these folks who we are 
asking a lot of, and that is just not a fair situation they 
find themselves in.
    Mr. Souder. One of the things I would like to know, in your 
opinion are people actually, if the overtime pay runs out and 
they are not paid, are they actually working, which they are 
not supposed to do, but are they doing it because they don't 
want to lose their cases?
    Mr. Rogers. I can tell you that those agents are working. 
These are very dedicated individuals. We did it in our office. 
I see an agent over here I worked with in Chicago. I saw him do 
it. We did it. Most agents, 99 percent of them will continue 
working. Again, they are dedicated to their purpose. We just 
need to step up and give them a little relief, I think.
    Mrs. Davis of Virginia. We actually only have one vote, and 
we are going to go ahead and continue with the hearing.
    Thank you, Representative Rogers.
    I now would like to invite the second panel of witnesses to 
please come forward on this panel.
    We have Joanne Simms from the Department of Justice, Norman 
Rabkin from the General Accounting Office, Donald Winstead from 
the Office of Personnel Management, and Kay Frances Dolan from 
the Department of Homeland Security.
    I'd also like to ask Chris Mihm, Director of Strategic 
Issues at the General Accounting Office, if he would stand and 
also be sworn in, in case there are questions for you.
    If the panel would remain standing, I will administer the 
oath. It is the subcommittee's standard practice to ask 
witnesses to testify under oath. So if you would please raise 
your right hands.
    [Witnesses sworn.]
    Mrs. Davis of Virginia. Let the record reflect that the 
witnesses have answered in the affirmative, and you may be 
seated.
    The panel will now be recognized for an opening statement, 
and we will ask you to summarize your testimony in 5 minutes. 
Any more complete statement you may wish to make will be 
included in the record.
    I would like to welcome Joanne Simms, Deputy Assistant 
Attorney General for Human Resources and Administration at the 
Department of Justice. Thank you for being with us today, Ms. 
Simms; and you are recognized first for the first 5 minutes.

 STATEMENTS OF JOANNE SIMMS, DEPUTY ASSISTANT ATTORNEY GENERAL 
FOR HUMAN RESOURCES AND ADMINISTRATION, DEPARTMENT OF JUSTICE; 
  NORMAN J. RABKIN, MANAGING DIRECTOR, HOMELAND SECURITY AND 
 JUSTICE, U.S. GENERAL ACCOUNTING OFFICE; DONALD J. WINSTEAD, 
   DEPUTY ASSOCIATE DIRECTOR, CENTER FOR PAY AND PERFORMANCE 
POLICY, OFFICE OF PERSONNEL MANAGEMENT; AND KAY FRANCES DOLAN, 
  DIRECTOR OF HUMAN RELATIONS POLICY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Simms. Good morning, Madam Chairwoman and Chairman 
Souder. Thank you for this opportunity to testify before your 
subcommittee as you examine issues affecting the law 
enforcement community. We appreciate your interest in these 
critical issues. I look forward to working with you and our 
fellow law enforcement agencies as we go forward.
    The Department of Justice employs close to 50,000 law 
enforcement employees, of which the primary occupational groups 
include criminal investigators and correctional officers. Our 
core enforcement components include the Federal Bureau of 
Investigation; the Drug Enforcement Administration; the Bureau 
of Alcohol, Tobacco, Firearms and Explosives; the U.S. Marshals 
Service and the Bureau of Prisons.
    The average age of our law enforcement employee is close to 
39 years; and, on average, the majority are college educated. 
Many of our employees have families, and most will generally 
experience several moves during the course of their careers. 
Our law enforcement work force is assigned to offices in all 50 
States, territories and all over the world. Their working 
conditions run from the typical white collar office environment 
to a makeshift desk or laptop in the middle of a jungle in 
South America, to prisons and correctional facilities, 
courthouses, airplanes and everything in between.
    As a general rule, I think we can all agree that a 
consistent policy approach should be taken to managing law 
enforcement pay and benefits, as well as other work-related 
aspects across the Federal Government. Comparable pay for 
comparable work should be one of our guiding principles. Cross-
cutting missions and activities, particularly in the post-
September 11 environment, increase the opportunities for law 
enforcement agencies and personnel to become aware of 
disparities in pay and benefits between segments of the law 
enforcement community. As an example, one need only look at the 
well-publicized startup operation at the Transportation 
Security Administration that we have already talked about this 
morning which resulted in considerable attrition within several 
law enforcement agencies. It appears the situation is righting 
itself, as TSA is now an operating entity and no longer needs 
to draw its work force from other trained Federal law 
enforcement organizations.
    This experience has been instructive, however, and has 
reinforced our view, as well as others, that fair and 
consistent treatment of Federal law enforcement officers is 
essential in maintaining a stable and satisfied work force. 
There are a few areas related to law enforcement compensation 
that merit attention.
    Pay, of course. Law enforcement work is, by necessity, 
difficult and dangerous. The specific aspects of mission vary 
among agencies. Some may focus on investigating terrorism, 
tracking dangerous fugitives or enforcing the drug laws. Other 
enforce laws pertaining to alcohol, tobacco, firearms and 
explosives; and still others manage prisoners in a variety of 
correctional settings. All of our law enforcement personnel, 
however, may find themselves in situations where their personal 
safety and security is put at risk. A fair compensation 
approach using equal pay for the same type of law enforcement 
work as one of the guiding principles is essential. We must 
have the ability to tie pay more closely to performance.
    Mobility. Law enforcement officers are generally required 
to be mobile in the performance of their work, including facing 
repeated relocations throughout the course of their career. For 
example, one component of the Department has a policy to 
relocate its new agents after training so each can begin his or 
her career with a fresh start in a locale that is not the one 
in which they grew up. In other cases, mobility is needed to 
respond to critical crime situations such as the sniper attacks 
last fall when 125 ATF agents and numerous FBI agents were 
brought to the metropolitan D.C. community to deal with this 
difficult and terrifying situation.
    Also, the career development process for managers and 
supervisors in law enforcement agencies requires them to have a 
wide variety of enforcement experiences at the front line as 
well as in headquarters and necessitates a number of moves to 
achieve this level of experience. The amount of required 
mobility becomes a particular concern for law enforcement 
officers who may have to uproot their families to go from low-
cost to high-cost areas or must move from locales which provide 
a wide range of services for families to locations where public 
services may be very limited or less desirable. School system 
differences, services for special needs children, elder care, 
by example.
    Additionally, addressing affordable housing in high-cost 
areas and addressing reassignments to undesirable overseas 
locations are some of the issues that challenge our law 
enforcement officers.
    We have addressed some of these compensation issues through 
Public Law 107-273, which was enacted in November 2002, which 
allows for the offer of an extended assignment bonus to law 
enforcement officers who remain beyond their original tour of 
duty in U.S. territories or possessions.
    The Department has had longstanding quality-of-life issues 
for law enforcement personnel assigned to U.S. territories, 
particularly where English is not the first language; and 
Congress has assisted in addressing this need by authorizing 
house hunting trips for agents and their spouses.
    We are aware of, and in some instances provided information 
for, several studies that are collecting data and reviewing 
these issues. The recent report of the Office of Personnel 
Management in this area is a comprehensive survey that includes 
data on all of the principal law enforcement agencies. We will 
continue to review and provide information as requested for all 
these studies and reports.
    Finally, as you know, our law enforcement employees do a 
superb job maintaining the security of our citizens and 
enforcing the rule of law. We are confident that you agree that 
they deserve the best support we can give them as they perform 
their jobs on our behalf. Ensuring fair and equitable treatment 
in pay and benefits for all Federal law enforcement 
professionals is one essential component in maintaining a 
stable and satisfied and high-performing work force.
    Thank you.
    Mrs. Davis of Virginia. Thank you, Ms. Simms.
    [The prepared statement of Ms. Simms follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.084
    
    [GRAPHIC] [TIFF OMITTED] T0887.085
    
    [GRAPHIC] [TIFF OMITTED] T0887.086
    
    [GRAPHIC] [TIFF OMITTED] T0887.087
    
    [GRAPHIC] [TIFF OMITTED] T0887.088
    
    [GRAPHIC] [TIFF OMITTED] T0887.089
    
    [GRAPHIC] [TIFF OMITTED] T0887.090
    
    [GRAPHIC] [TIFF OMITTED] T0887.091
    
    Mrs. Davis of Virginia. I now would like to recognize 
Norman Rabkin, Managing Director of Homeland Security and 
Justice issues at the General Accounting Office.
    Thank you, Mr. Rabkin, for being with us today.
    Mr. Rabkin. Chairwoman Davis, Chairman Souder, members of 
the subcommittee, I am pleased to be here today to discuss two 
recent GAO reports of interest to your subcommittees.
    The first report discusses experiences encountered by the 
Federal police forces in the Washington, DC, area last year as 
they tried to hire officers to replace those who left to become 
Federal Air Marshals and for other reasons.
    The second report discusses key practices found at the 
center of successful merges and transformations and is 
applicable to the recent creation of the Department of Homeland 
Security that combined 22 agencies with an estimated work force 
of 160,000 employees.
    With me to discuss this report is Chris Mihm, who's a 
Director of Strategic Issues in GAO.
    First, Federal police forces. Many Federal agencies in the 
Washington, DC, metropolitan area have their own police forces 
to ensure the security and safety of the persons and property 
within and surrounding Federal buildings. For example, the 
Secret Service has over 1,00 uniform officers protecting the 
White House, the Treasury building and other facilities used by 
the people it protects. The Pentagon now has a police force of 
about 400 officers. NIH has a force of just over 50 officers.
    After the terrorist attacks of September 11 and the 
government's subsequent efforts to increase airline security, 
many of these local police forces began experiencing 
difficulties in recruiting and retaining officers. Police force 
officials raised concerns that the Federal Air Marshall Program 
was hiring many prospective and experienced officers by 
offering better starting pay and law enforcement retirement 
benefits.
    Our review of 13 Federal police forces in the Washington 
area show that, in fiscal year 2002, total turnover nearly 
doubled from the previous year. Of the officers who voluntarily 
separated in fiscal year 2002, about half left to become 
Federal Air Marshals. Some of the forces tried to prevent this 
turnover by providing retention allowances and using other 
human capital flexibilities such as cash awards for 
performance.
    Officials at 8 of the 13 forces told us they experience 
moderate to very great recruiting difficulties trying to 
replace these officers. Among the reasons the officials gave 
for difficulties were low pay, the high cost-of-living in the 
area, difficulty completing the application process and better 
retirement benefits at other law enforcement agencies. However, 
none of the 13 forces used recruitment bonuses or student loan 
repayments to try to improve their recruiting efforts, mainly 
because they didn't have enough funding or authority to do so.
    Entry level pay at the 13 agencies last year ranged from 
$28,800 to $39,400. Twelve of the 13 agencies have since 
increased entry level pay this year, and the range is currently 
from about $33,000 to $43,000.
    Since we issued our report, information we have received 
from the 13 police forces indicates that in this fiscal year 
turnover rates have dropped significantly for 12 of the 13 
forces. For example, turnover here at the Capitol Police is 
about 4 percent. Last year, it was about 13 percent. At NIH, 
where last year 58 percent of the force turned over, the 
current turnover is 17 percent.
    Next, our report on mergers and transformations. I would 
like to highlight four of the many key practices and 
implementation steps that agencies such as the Department of 
Homeland Security can take if they transform their cultures to 
be more results-oriented, customer-focused and collaborative in 
nature.
    First, agency leadership needs to drive the transformation 
by defining and articulating a succinct and compelling reason 
for the change. The more the employees, customers and 
stakeholders understand the expected outcomes of the 
transformation, the more cooperation they will give and 
ownership they will assume.
    Second, in setting implementation goals, the agency should 
try to understand the cultures of the merging organizations. 
This will help leadership gain a better understanding of the 
employees' values and beliefs.
    Third, the agency should implement performance management 
systems with adequate safeguards. Leading organizations have 
modern, effective, credible systems with reasonable 
transparency and appropriate accountability mechanisms to 
support performance-based pay and related personnel decisions.
    Fourth, agencies should try to involve employees in 
planning the transformation and sharing information on how the 
transformation is progressing. This should increase insights 
about operations from a front-line perspective.
    Madam Chairwoman, Mr. Chairman, this completes my oral 
statement; and I will be glad to answer your questions.
    Mrs. Davis of Virginia. Thank you, Mr. Rabkin.
    [The prepared statement of Mr. Rabkin follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.092
    
    [GRAPHIC] [TIFF OMITTED] T0887.093
    
    [GRAPHIC] [TIFF OMITTED] T0887.094
    
    [GRAPHIC] [TIFF OMITTED] T0887.095
    
    [GRAPHIC] [TIFF OMITTED] T0887.096
    
    [GRAPHIC] [TIFF OMITTED] T0887.097
    
    [GRAPHIC] [TIFF OMITTED] T0887.098
    
    [GRAPHIC] [TIFF OMITTED] T0887.099
    
    [GRAPHIC] [TIFF OMITTED] T0887.100
    
    [GRAPHIC] [TIFF OMITTED] T0887.101
    
    [GRAPHIC] [TIFF OMITTED] T0887.102
    
    [GRAPHIC] [TIFF OMITTED] T0887.103
    
    [GRAPHIC] [TIFF OMITTED] T0887.104
    
    [GRAPHIC] [TIFF OMITTED] T0887.105
    
    [GRAPHIC] [TIFF OMITTED] T0887.106
    
    [GRAPHIC] [TIFF OMITTED] T0887.107
    
    [GRAPHIC] [TIFF OMITTED] T0887.108
    
    [GRAPHIC] [TIFF OMITTED] T0887.109
    
    [GRAPHIC] [TIFF OMITTED] T0887.110
    
    [GRAPHIC] [TIFF OMITTED] T0887.111
    
    [GRAPHIC] [TIFF OMITTED] T0887.112
    
    [GRAPHIC] [TIFF OMITTED] T0887.113
    
    [GRAPHIC] [TIFF OMITTED] T0887.114
    
    [GRAPHIC] [TIFF OMITTED] T0887.115
    
    Mrs. Davis of Virginia. Next, we have Donald Winstead, 
Deputy Associate Director for the Center for Pay and 
Performance Policy at OPM.
    Thank you, Mr. Winstead; and you may begin your statement.
    Mr. Winstead. Madam Chairwoman, Mr. Chairman and members of 
the subcommittee, on behalf of Office of Personnel Management 
Director Kay Coles James, I am pleased to be with you today to 
discuss personnel issues affecting law enforcement employees in 
the Federal Government. Let me assure you at the outset that we 
greatly appreciate the many significant contributions to the 
Nation's security made by the dedicated members of the Federal 
law enforcement community.
    The provisions governing pay and benefits for employees in 
that community and those in related occupations have evolved 
over many years. The stated purpose of the special law 
enforcement retirement provisions has been to make it possible 
for the government to maintain a young and vigorous work force 
in certain occupations requiring such employees. These 
provisions have never been intended as a reward for employees 
who perform certain types of work. The evolution of these 
provisions through legislation and judicial interpretation, 
however, has led to coverage decisions that are not always 
consistent and which are regarded in some cases as inequitable.
    OPM recently completed a report on Federal employees with 
law enforcement duties. Our report, which was transmitted to 
Congress on June 30, covers employees who meet the definitions 
of law enforcement officer and the laws governing the Civil 
Service Retirement Service [CSRS], and the Federal Employees 
Retirement System [FERS], as well as other employees who have 
arrest authority; and here are some of the key findings of our 
report.
    The government employs a total of about 99,000 employees 
who are covered by the special law enforcement retirement 
provisions of CSRS or FERS. More than 80 percent of these 
employees work in the Department of Justice or the new 
Department of Homeland Security.
    The government employs another 30,000 employees who have 
authority to make arrests under Federal law but who are not 
covered by the definition of law enforcement officer and CSRS 
or FERS. Of these, 56 percent work for the Department of 
Homeland Security.
    Most law enforcement officers [LEOs], and other employees 
with arrest authority, which we will call non-LEOs, are covered 
by standard basic pay and benefit systems. Within these 
systems, LEOs have special governmentwide pay and retirement 
benefits. Some LEOs and non-LEOs are covered by non-standard 
basic pay, premium pay and retirement provisions established 
under independent legislative authority or the Title 5 
demonstration project authority.
    Some of the non-standard basic-pay systems covering LEOs 
have a structure that is similar to, or linked to, the general 
schedule. However, some basic pay systems provide higher pay 
ranges than the general schedule. The Department of Homeland 
Security has a number of non-standard premium pay provisions. 
Customs inspectors and Immigration inspectors in particular 
receive significantly higher payments for overtime and other 
special work than other Federal employees.
    We believe the information in OPM's June 30 report provides 
the foundation for a greater understanding and appreciation of 
the complexity of the pay and benefits provisions currently 
applicable to Federal law enforcement personnel.
    Under the terms of the Homeland Security Act, OPM is 
working with the Department of Homeland Security to develop a 
new pay system that will cover many law enforcement officers. 
DHS and OPM have established a DHS human resources system 
design team that has been charged with developing a range of 
options for human resource systems in areas of basic pay, 
classification, performance management, disciplinary action and 
appeals and labor-management relations. Any changes in premium 
pay or retirement benefits, however, would require additional 
legislation.
    OPM and DHS will work with the Office of Management and 
Budget to help formulate the administration's position on any 
possible legislative proposals involving law enforcement 
personnel. We will be especially interested in evaluating the 
impact of any such proposal on options for modifying the basic 
pay of DHS employees under the new authority provided by the 
Homeland Security Act. In general, we are weary of any proposal 
that would have the effect of creating new pay or benefits 
disparities without a clearly articulated rationale for 
differences in treatment.
    Finally, we believe any changes in law affecting law 
enforcement personnel should be driven by an assessment of the 
impact of those changes on the ability of Federal agencies to 
meet their strategic goals and objectives. For that reason, we 
believe major changes in the current pay and benefit structure 
for employees in law enforcement and related occupations should 
not be made without considering such factors as the recruitment 
and retention situation, the physical and mental demands of law 
enforcement employment, the treatment of other types of 
employees in similar circumstances, what human resources 
management problems, if any, exist under current provisions and 
how any proposed change would affect overall Federal 
expenditures. In addition, the application of any such 
provisions should be clear-cut, objective and consistent.
    I will be pleased to answer any questions that any members 
of the subcommittee may have.
    Mrs. Davis of Virginia. Thank you, Mr. Winstead.
    [The prepared statement of Mr. Winstead follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.116
    
    [GRAPHIC] [TIFF OMITTED] T0887.117
    
    [GRAPHIC] [TIFF OMITTED] T0887.118
    
    [GRAPHIC] [TIFF OMITTED] T0887.119
    
    [GRAPHIC] [TIFF OMITTED] T0887.120
    
    [GRAPHIC] [TIFF OMITTED] T0887.121
    
    [GRAPHIC] [TIFF OMITTED] T0887.122
    
    [GRAPHIC] [TIFF OMITTED] T0887.123
    
    [GRAPHIC] [TIFF OMITTED] T0887.124
    
    [GRAPHIC] [TIFF OMITTED] T0887.125
    
    [GRAPHIC] [TIFF OMITTED] T0887.126
    
    [GRAPHIC] [TIFF OMITTED] T0887.127
    
    Mrs. Davis of Virginia. Finally, we have Kay Francis Dolan, 
Director of Human Relations Policy at the Homeland Security 
Department.
    Ms. Dolan, you are recognized for 5 minutes.
    Ms. Dolan. Good morning, Chairwoman Davis and Chairman 
Souder. I am Kay Frances Dolan, Director of Departmental Human 
Resource Policy at the Department of Homeland Security. Prior 
to joining the Department in March, I was the Deputy Assistant 
Secretary for Human Resources at the Department of the 
Treasury. I am very pleased to be here today, and the 
Department of Homeland Security appreciates very much the 
support we have received from the committee as we move to 
create a new human resource system.
    The Homeland Security Act of 2002 provided the Department 
with a historic opportunity to design a 21st century human 
resource management system that is fair, performance-based, 
flexible and supports the goals of the Department as well as 
the people of the Department of Homeland Security. We have a 
responsibility to create a system that is flexible and 
contemporary, while preserving basic Civil Service principles. 
This is one of the most exciting challenges facing any 
government agency. It's not a simple task, and it is not a task 
to be taken lightly. The Secretary and the Director of the 
Office of Personnel Management have asked us to take the time 
to do it right.
    Working with OPM, including my colleague here, Don 
Winstead, we are following a process that ensures maximum 
collaboration with our employees and their representatives, 
stakeholders and subject matter experts.
    I am pleased to note that the next panel includes several 
union leaders who have joined with us in the design process. 
Their commitment and their contributions to the process have 
been invaluable.
    We have established a design team that includes human 
resource professionals both from the Department and from OPM, 
DHS front-line employees and managers and union 
representatives. The design team has been conducting research 
and outreach since April 1st. We recently completed town hall 
and focus group meetings in nine cities across the country, 
meeting with over 2,000 front-line employees and managers to 
elicit their input to the design of the new system. While the 
results of these sessions are still being compiled, we can say 
that participants are extremely proud of the work they do on 
behalf of this country and they also believe very strongly that 
they be treated fairly.
    The design team has conducted research in the public and 
private sectors and met with close to 100 individuals and 
organizations to discuss practices and lessons learned. The 
team has now begun to develop a range of options in each of the 
six areas of flexibility granted to the Department: pay, 
classification, performance management, adverse actions, 
appeals and labor relations.
    Secretary Ridge charged the design team with developing 
options that support both the mission of the Department and the 
people who implement that mission. He insisted that the team 
develop options where all employees can be confident that they 
will be hired based on merit, will receive fair treatment 
without regard to political affiliation, will receive equal pay 
for the same type of law enforcement work and will not be 
retaliated against for whistle-blowing. Finally, he asked the 
design team to develop options which hold people accountable 
for their performance, and that's at every level.
    A Senior Review Committee [SRC], has been established to 
determine which action should be presented to the Secretary and 
the Director for their consideration. The SRC will hold its 
first meeting later this week on Friday, and that meeting is 
open to the public. Around the beginning of October, the SRC 
will meet again to review and narrow the range of options for 
presentation to the Secretary and the Director. Finally, the 
Director and the Secretary plan to issue proposed regulations 
for a new system later this calendar year.
    One of the most significant challenges is the issue of pay 
and benefits disparities for the over 50,000 employees who are 
either covered by law enforcement retirement benefits or who 
are in positions with some kind of law enforcement work. As 
members and the panelists know, the differences can be very 
significant and include differences in base pay, overtime and 
other premium pay, retirement and special pay supplements.
    The Section 881 report required by the Homeland Security 
Act provides many examples of differences we inherited when the 
Department was created. Not all of the differences constitute 
unwarranted disparities.
    The design team will help identify those instances where 
changes are needed, and both subcommittees have generously 
invited the Department to make proposals where legislation may 
be necessary.
    Thank you for the opportunity to appear before you today, 
and I would be happy to answer any questions.
    [The prepared statement of Ms. Dolan follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.128
    
    [GRAPHIC] [TIFF OMITTED] T0887.129
    
    [GRAPHIC] [TIFF OMITTED] T0887.130
    
    [GRAPHIC] [TIFF OMITTED] T0887.131
    
    [GRAPHIC] [TIFF OMITTED] T0887.132
    
    [GRAPHIC] [TIFF OMITTED] T0887.133
    
    [GRAPHIC] [TIFF OMITTED] T0887.134
    
    [GRAPHIC] [TIFF OMITTED] T0887.135
    
    [GRAPHIC] [TIFF OMITTED] T0887.136
    
    [GRAPHIC] [TIFF OMITTED] T0887.137
    
    Mrs. Davis of Virginia. Thank you, Ms. Dolan. And thank you 
to all of our panelists for being willing to be here today. And 
I am going to yield to my chairman, Mr. Souder, to begin the 
questioning.
    Mr. Souder. Let me ask a--you gave us so much information. 
We have been out in the grassroots, and I am trying to process 
kind of where--which one of you and where to start. So let me 
start first with the GAO study.
    You referred to the turnover rates dropping, you use--is 
the only place you studied D.C. in that?
    Mr. Rabkin. That's correct.
    Mr. Souder. And that the rates dropped dramatically after 
TSA basically had finished their hiring, and there seems to be 
some stability. In your opinion, were there--there is a couple 
of different things I wanted to sort through, because that 
suggests--and do you agree--that the problem was short-term. If 
it was short term, were there gaps that were significant in 
lack of protection during the period that we were trying to 
catch up? Have we seen a decline in the quality of work force 
because of the turnover and the rapid change? In other words, 
what's the practical implication, at least from Washington, DC, 
that you saw when there was a high turnover rate and now where 
we have a little bit more stability?
    Mr. Rabkin. That's an excellent question. We didn't look 
specifically at that. We did followup with the agencies to get 
their perceptions on recruiting problems. And many of these 
police forces had significant or substantial problems trying to 
recruit new officers to replace those that were leaving, many 
of whom ended up going to the Federal Air Marshal program. But 
I think it would take a different kind of an evaluation to 
examine the impact that situation, short lived as it might have 
been, had on the quality of the work or their ability to meet 
their mission during that period of time.
    Mr. Souder. I can't remember whether it was in your 
testimony or Mr. Winstead's from OPM, that one of you had a 
piece of data in there that suggested that the turnover rate 
among police officers was higher than that among the Border 
Patrol and Customs?
    Mr. Winstead. Yes. I believe that was our testimony. We 
used the term ``quit rate.'' And by that, we mean voluntary 
separations from a position with the Federal Government, 
excluding retirements. And I believe the testimony that we 
provided indicated that for police officers, the quit rate in 
fiscal year 2001, 2002, was in the 5 to 6 percent range, which 
is higher than the overall average quit rates for Federal 
employees as a whole.
    The other thing I think we pointed out, however, is that 
OPM approved higher special pay rates for police officers 
throughout the country in early 2003 after the close of last 
fiscal year. Those increases ranged up to 20 to 25 percent 
depending on grade level and location. And our expectation 
would be that those quit rates that we saw in the last couple 
of years will begin to decline this year as a result of the 
higher pay.
    Mr. Souder. Did you separate--at that time Customs and 
Border Patrol were two separate when you did the study? Or was 
this after the Department of Homeland Security? Did you see 
much differences between them?
    Mr. Winstead. In terms of?
    Mr. Souder. This is non-retirement reasons for quitting.
    Mr. Winstead. Right.
    Mr. Souder. Not retirement.
    Mr. Winstead. That's correct.
    Mr. Souder. OK.
    Mr. Winstead. And separations from the Federal Government 
as a whole. That's what we mean by the term quit rate. We 
looked at criminal investigators and correctional officers. 
Those are the two largest law enforcement officer occupations. 
And the quit rates for those groups are actually less than 1 
percent. And the next largest law enforcement occupation is 
Border Patrol agents. And there, the quit rate was about 2 
percent or less than 2 percent at the junior level. It is 
higher at the entry level. And the----
    Mr. Souder. Higher by what factor?
    Mr. Winstead. Well, at the lowest grades, the entry grades, 
the quit rate tends to be fairly high. And that's true, I 
think, largely because of the stringent training requirements 
and the fact that some of the individuals who are initially 
recruited for those jobs simply fail to complete the training. 
I can get those percentages for you.
    Mr. Souder. One last question with that is, is that in the 
Border Patrol, did you see any differences in those quit rates 
in the south border from the north border? Because certainly 
from our experience from going out there is, is that there is 
almost no turnover at the north border. And at the south 
border, that those who aren't trying to get out are out. And 
that, in other words, at one point, in one zone 40 percent had 
applied for either transfer or leaving the Border Patrol. I 
believe that was in the Arizona sector when the Homeland 
Security came up. It's partly challenge of jobs, it's partly 
challenge of the pay questions. And we are trying to sort out 
which things they are in retention and how much of this is pay 
and how much of it is other substances.
    Mr. Winstead. I don't have readily at hand the information 
about the quit rates for the southern border as compared to the 
northern border or other locations, but we can get that 
information for you.
    Mr. Souder. Thank you.
    Ms. Dolan, do you have any comments?
    Ms. Dolan. No, I don't. Nothing to add.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    I am not sure who this question is for. How do you respond 
to--you all heard Representative Filner's comment. And that's 
what actually tweaked my interest when he first came to me 
about his bill, was men and women who do their job every day 
and are not classified as law enforcement officers, yet when 
they die they are classified as law enforcement officers. How 
do you respond to that?
    Mr. Winstead. Madam Chairwoman, I think what I would say is 
the law certainly does not reflect the dictionary definition of 
law enforcement officer. We are charged with administering the 
law as it currently exists, and that law defines the term ``law 
enforcement officer'' in a very precise and very particular way 
that happens to exclude individuals, many individuals who would 
probably meet the dictionary definition of that term, law 
enforcement officer. The term itself I think has been 
problematic from the inception.
    Mrs. Davis of Virginia. What changes from life to death to 
make them meet the requirements of the law to be considered a 
law enforcement officer?
    Mr. Winstead. Well, I'm not privy to the rules governing 
the circumstances under which the names are added to the wall 
at the memorial. So I don't know exactly what criteria are used 
for that purpose.
    Mrs. Davis of Virginia. Have you all had a chance to look 
at these three pieces of legislation from the three gentlemen 
that are here? And, if so, any comments on the legislation?
    Mr. Winstead. We have looked at the legislation. I think 
the administration, however, is not in a position to express 
that, a position on any of that legislation at this point in 
time.
    Mrs. Davis of Virginia. Anybody else?
    Ms. Simms. I would have to ditto that, and only add that we 
haven't had sufficient time at this point to thoroughly analyze 
what it means. I think we are generally supportive, but we'd 
have to look at the specifics of it.
    Mrs. Davis of Virginia. Let me ask you, Ms. Simms, do you 
think that law enforcement officer retirement benefits should 
be given to all employees who do law enforcement activities? Or 
should they be used strictly as a personnel management tool for 
recruitment and retention?
    Ms. Simms. We are a strong proponent of consistency across 
the board. Within the Department of Justice we've taken looks 
at several junctures; we've formed various committees to take a 
look at the inequities across--within the--internal to the 
Department. We have had representatives from each one of the 
bureaus talk about the pay and benefit disparities. We have 
actually done an onsite study in Puerto Rico where we have 
housing and language and education issues. We are a strong 
proponent of consistency across the board.
    Mrs. Davis of Virginia. Do you think there are 
inconsistencies right now?
    Ms. Simms. Yes, I do.
    Mrs. Davis of Virginia. Just within the Department of 
Homeland Security, or throughout?
    Ms. Simms. When I say across the board, I mean internal to 
the Department of Justice as well as externally when we are 
looking at our sister agencies.
    Mrs. Davis of Virginia. What can we in Congress do to help 
you alleviate or remove those inconsistencies?
    Ms. Simms. I think, certainly, endorsing the legislation 
that is coming forward after all have had an opportunity to 
weigh in on that and address it as it pertains to our own 
particular organizations. The fact that we are here today I 
think is a huge step in that direction. I don't know that it 
has been addressed in this type of forum before, and we 
certainly appreciate that.
    Mrs. Davis of Virginia. Anybody else have any comments on 
those questions?
    Unfortunately, we have been called for another vote now.
    Mr. Winstead. Madam Chairwoman, I think we said in our 
statement that one of the things that we will be careful to 
look at in reviewing any proposed legislation is the extent to 
which it may have an impact on the options that we are 
developing jointly with the Department of Homeland Security. 
And, in addition, we are very concerned about the potential for 
creating new pay and benefits disparities. Part of the problem 
that we have right now is that legislation has been enacted 
over the years, which of course was well intentioned and 
addressed a problem, a serious problem that existed at the 
time. But in the aggregate, what we end up with is a situation 
with a number of perceived inequities. And we simply would want 
to avoid replicating that situation by seeing legislation 
enacted that creates new pay and benefits disparities.
    Mrs. Davis of Virginia. I think that's been a concern of 
this committee as well, Mr. Winstead. We had all of these--in 
fact, my staff didn't want me to co-sponsor so many of those 
pieces of legislation because it was piece-mealed. But I wanted 
to, to send the message that we need to do something to correct 
the inconsistencies and inadequacies that are out there for our 
folks that are on the front line, if you will.
    We, unfortunately, have a series of 6 votes, which means we 
are going to have to adjourn probably for about 45 minutes or 
so. I don't want to keep this panel. I have a lot more 
questions. If I can submit them to you in writing and get you 
to respond to me in writing, that way I can let you go.
    And, unfortunately, I am going to have to ask Ms. Kelly, 
bless your heart, you always have to wait for votes. I am going 
to have to ask the third panel if you would excuse us while we 
recess for 45 minutes roughly, until we finish the 6 votes.
    I want to thank all four of you, and hope that you will be 
available to our staff if we have questions, if you will review 
the legislation. And when are you supposed to get back to us, 
Ms. Dolan?
    Ms. Dolan. The Secretary and the Director of OPM will be 
issuing proposed regulations in the fall. And meanwhile, we 
will be happy to keep you apprised of our progress.
    Mrs. Davis of Virginia. I would appreciate that. We have a 
lot of good men and women out there doing the job, and we don't 
want to lose them and we want to make sure that they are 
treated fairly. Thank you all so much.
    We are going to recess until about 11:50, and hope we will 
be back by then. Thank you.
    [Recess.]
    Mrs. Davis of Virginia. We recessed for the votes we were 
going to have, and they have recessed basically for an hour, 
which means that about the time we get started again they are 
going to call us for the votes again. And we have a problem of 
having to be out of this room by 1:30. That's the way things 
are in Congress, though. And we have to be flexible.
    We are going to go ahead and start. And we will swear the 
other witness in when he gets in. So if the panel would rise.
    We have on this panel Colleen Kelley, president of the 
National Treasury Employees Union; Ignatius Gentile, president 
of the DHS Council 117 as part of the American Federation of 
Government Employees; Nancy Savage, president of the FBI's 
Agents Association; Richard Gallo, former president of the 
Federal Law Enforcement Officers Association; T.J. Bonner, 
president of the National Border Patrol Council; And, finally, 
Louis Cannon, president of the D.C. State Lodge for the 
Fraternal Order of the Police.
    If you will raise your right hands, I will administer the 
oath.
    [Witnesses sworn.]
    Mrs. Davis of Virginia. Let the record reflect that the 
witnesses have answered in the affirmative. And you may be 
seated.
    The panel will now be recognized for an opening statement. 
We will ask you to summarize your testimony in 5 minutes; and 
any more complete statement you may wish to make will be 
included in the record.
    I would first like to welcome Colleen Kelley, who is no 
stranger to this committee. Colleen, you have been here several 
times to testify this year. I would like to thank you for being 
with us today. And you are recognized for 5 minutes.

 STATEMENTS OF COLLEEN M. KELLEY, PRESIDENT, NATIONAL TREASURY 
  EMPLOYEES UNION; IGNATIUS GENTILE, PRESIDENT, DEPARTMENT OF 
     HOMELAND SECURITY COUNCIL 117, AMERICAN FEDERATION OF 
 GOVERNMENT EMPLOYEES; NANCY SAVAGE, PRESIDENT, FEDERAL BUREAU 
  OF INVESTIGATION AGENTS ASSOCIATION; RICHARD GALLO, FORMER 
 PRESIDENT, FEDERAL LAW ENFORCEMENT OFFICERS ASSOCIATION; AND 
 LOUIS P. CANNON, PRESIDENT, DISTRICT OF COLUMBIA STATE LODGE 
   CHAIRMAN, FEDERAL OFFICER'S COMMITTEE, FRATERNAL ORDER OF 
                             POLICE

    Ms. Kelley. Thank you very much, Chairwoman Davis, Chairman 
Souder. It is a pleasure to be here on behalf of the 150,000 
Federal employees represented by NTEU. That number includes 
over 7,500 Customs inspectors, 6,000 IRS Revenue officers, and 
over 900 Customs K-9 enforcement officers who do perform law 
enforcement functions every day.
    The creation of the Department of Homeland Security has 
moved the issue of Federal law enforcement officer status to 
the forefront of Federal employee pay and benefit issues. On 
March 1, 2003, the Bureau of Customs and Border Protection was 
established within DHS. The CBP combines over 42,000 Federal 
employees from the Customs Service, the INS, the Border Patrol, 
and the Agriculture Department.
    In addition to provisions in the legislation that created 
the DHS, a number of other pieces of legislation have been 
introduced during the 108th Congress that would alter the 
definition and the benefits of Federal law enforcement 
officers. One of the most important pieces of legislation 
involving the definition of law enforcement officer is H.R. 
2442, the Law Enforcement Officers Equity Act of 2003. This 
bipartisan legislation would include Customs inspectors, CEOs, 
and IRS revenue officers as law enforcement officers for the 
purpose of 20-year retirement.
    NTEU believes that Customs inspectors, IRSROs, and Customs 
CEOs should receive the same 20-year retirement option as other 
law enforcement officers. Their job duties regularly expose 
them to real threat and injury, and even to death. This is 
dangerous work with real and unrelenting hazards.
    The Customs inspectors and CEOs in the CBP have as their 
primary mission stopping terrorism and the flow of illegal 
drugs into the United States. Inspectors and CEOs enforce 
Federal criminal laws and stop fugitives who are subject to 
State and Federal warrants and are responsible for stopping 
sophisticated and dangerous narcotics smugglers, international 
money launderers, armed smugglers, and terrorists. They search 
aircraft, vessels, automobiles, rail cars, travelers, and 
baggage for violations of civil and criminal laws at 307 ports 
of entry.
    The work of the Customs inspectors and the CEOs involves a 
substantial physical risk and personal danger. According to the 
FBI's 2001 Uniform Crime Report, Customs officers accounted for 
62 percent of the officers who were injured in the line of duty 
in the Treasury Department in 2001. Inspectors and CEOs are 
currently required to undergo 9 weeks of basic training at the 
Federal Law Enforcement Officer Training Center in Glencoe, GA. 
Their current training includes criminal law, arrest authority, 
arrest procedures, search and seizure authority, and techniques 
including self-defense tactics, frisk and patdown procedures, 
handcuffing and takedown techniques, antiterrorism, and 
firearms use. And all inspectors and CEOs are required to 
qualify on a firing range at least 3 times a year.
    According to the agency, inspectors and CEOs have been 
stabbed, run over, dragged by automobiles, assaulted with blunt 
objects, and threatened. Inspectors at every port face these 
hazards as they try to detect and detain drug traffickers, 
terrorists, and other felons. One only has to ask Customs 
inspector Diana Dean who stopped terrorist Ahmed Ressam, known 
as the Millennium Bomber, from entering the United States with 
a truckload of explosives in Port Angeles, WA on December 14, 
1999. It was later determined that Ressam has intended to use 
those explosives to destroy the Los Angeles International 
Airport.
    In addition to legislation providing 20-year retirement, 
other legislation such as H.R. 466 and 1676 would help Federal 
law enforcement officers to obtain the adjusted percentage 
differentials or locality pay under the Federal Law Enforcement 
Pay Reform Act of 1990.
    While NTEU agrees with the intent of these bills, we would 
prefer that Congress first eliminate the disparity between 
Federal employees such as those in Customs and IRS who for 
statistical purposes are considered law enforcement officers 
but by statutory definition are not.
    There is no doubt that extending law enforcement officer 
status to additional Federal employees will involve substantial 
costs. However, NTEU strongly believes that the costs are 
easily outweighed by the benefits to the officers, to the 
agencies, and to the American public. No one could reasonably 
dispute the importance of the work done by these law officers. 
Whether stopping illegal drugs or enforcing our Nation's tax 
laws, these hardworking men and women provide a critical public 
service. Given the significance of these jobs, it is vitally 
important for Customs and the IRS to be competitive with other 
State and local law enforcement agencies in granting these men 
and women 20-year retirement, and law enforcement officer 
status would be a very positive step in that direction.
    On behalf of the 150,000 members represented by NTEU, I 
thank this committee for taking such a serious look at this 
issue, and ask for your help in moving this issue forward to 
make it a reality. Thank you.
    Mrs. Davis of Virginia. Thank you, Ms. Kelley. We 
appreciate you being with us today.
    [The prepared statement of Ms. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.138
    
    [GRAPHIC] [TIFF OMITTED] T0887.139
    
    [GRAPHIC] [TIFF OMITTED] T0887.140
    
    [GRAPHIC] [TIFF OMITTED] T0887.141
    
    [GRAPHIC] [TIFF OMITTED] T0887.142
    
    [GRAPHIC] [TIFF OMITTED] T0887.143
    
    [GRAPHIC] [TIFF OMITTED] T0887.144
    
    [GRAPHIC] [TIFF OMITTED] T0887.145
    
    [GRAPHIC] [TIFF OMITTED] T0887.146
    
    [GRAPHIC] [TIFF OMITTED] T0887.147
    
    [GRAPHIC] [TIFF OMITTED] T0887.148
    
    [GRAPHIC] [TIFF OMITTED] T0887.149
    
    [GRAPHIC] [TIFF OMITTED] T0887.150
    
    [GRAPHIC] [TIFF OMITTED] T0887.151
    
    [GRAPHIC] [TIFF OMITTED] T0887.152
    
    Mrs. Davis of Virginia. Next, we have Nancy Savage of the 
FBI Agents Association. And we thank you for being with us, and 
you are recognized for 5 minutes.
    Ms. Savage. Thank you for this opportunity to appear before 
you today to testify about personnel issues that affect the 
effectiveness of Federal law enforcement; in particular, the 
Federal Bureau of Investigation. Also, I want to thank you for 
your bipartisan leadership and that of the other members of the 
committees, Representatives Mica, Sanchez, Van Hollen, who have 
joined you on H.R. 1676, which is critical to this effort. 
Allow me also to recognize and thank Congressman Mike Rogers, 
who had to leave here, for his critical effort in this regard.
    I am a special agent of the FBI, assigned to the Portland, 
ORegon division. I have worked for the FBI for 26 years, 6 as a 
personnel specialist, and 20 as a special agent. My early 
career in the FBI and also in the Department of the Army as a 
personnel specialist has helped me to try to frame this issue 
in my own mind, because I want to work for an effective 
personnel solution to what affects all my colleagues in Federal 
law enforcement.
    First, let me stress that FBI agents are patriots by 
nature. We don't take this job for wealth or fame. All FBI 
agents want to make a difference, but they also want to make a 
living.
    Since the terrorist attacks of September 11th, our agents 
have been on a constant state of alert. They typically work 10-
plus-hour days and face a 1 to 4-hour commute in a constant 
effort to prevent future attacks and bring terrorists to 
justice. They are also working their other traditional law 
enforcement responsibilities: the crackdown on organized crime, 
drug cartels, civil rights, violent gangs and hate groups, as 
well as guard against cyber crimes and identity theft. The list 
grows longer every day.
    To combat 21st century crimes, the FBI and other Federal 
law enforcement require highly trained individuals with special 
skills, advanced degrees, and, above all else, experience. We 
face an immediate crisis in high-cost-of-living areas. For 
example, the total salary, including overtime, a starting FBI 
agent in San Francisco can make is $45,000, which with overtime 
can reach a maximum of about $56,000. In May 2002, the median 
cost of a single family home in this area set a record of 
$439,000. The maximum a family with an income of $56,000 can 
afford to spend on a house is $203,000, half the going rate for 
a normal small house.
    In response to a recent Agents Association survey, one New 
York agent who has a law degree and speaks Spanish responded: 
``I have had to sell off most of my belongings and borrow from 
my family. The bottom line is that presently I am forced to 
move from room to room, often being homeless for days or weeks 
at a time.''
    The other financial issues that strikingly face us in 
California and New York are Joint Terrorism Task Force agents 
who work on our task forces in New York City and also in 
California. They work jointly with other Federal, State, and 
local law enforcement officers, are generally the lowest paid 
employees on those task forces.
    The personnel and effectiveness issues now confronting the 
FBI are a combination of short-term crisis in high-cost cities 
and broader systemic national problems. To this end, H.R. 1676 
offers both a short-term fix and a long-term solution. It 
eliminates the pay cap for agents, provides a geographic pay 
adjustment for the 13th highest cost-of-living in the United 
States, and directs OPM to study the effectiveness of a 
separate pay system for Federal law enforcement officers. This 
combination is critical if we are to succeed in addressing the 
issues Federal law enforcement faces here. A short-term fix 
alone in the form of a locality pay raise would soon erode, and 
representatives of Federal law enforcement will be back again 
asking Congress for help on this issue. Moreover, while a 
locality pay raise would be of great importance in those areas 
hardest hit right now, it will not fix the wider issues.
    To address the near-term pay problems in high-cost cities, 
it would adjust locality pay rates to make them more accurately 
reflect the real cost of living. It would be based on Chamber 
of Commerce cost-of-living statistics. And this would make a 
huge difference, because if we can pay those individuals who 
live in San Francisco, who live in New York, who live in L.A., 
what a true cost of living is, it will stop the exodus of our 
employees who are trying to get to Houston or other cities that 
are paid relatively large salaries based on a wage-base 
configuration currently in place.
    It would also provide an incentive for our employees to 
move to Washington, DC, which is an increasing cost-of-living 
geographic metropolitan area, and which is required of most of 
our management moves. And this is a critical issue. We need the 
best managers as well as the best agents. Without this 
incentive, we are facing a true crisis that grows worse year by 
year. And this is an important dynamic.
    To sum up this issue, I would have to also speak back to 
one of the earlier speakers, Donald Winstead from OPM. We need 
an effective solution that will take in and consider a 
personnel management system change that actually encourages our 
senior agents and even our junior agents to stay and work in 
high-cost-of-living areas where some of our more critical 
investigative functions are, and also encourage people to take 
that turn to come to Washington, DC, and fight some of these 
Beltway battles and become better prepared to go back out into 
the street and lead street agents.
    As a conclusion, I would like to say that we just thank you 
very much. We owe the people who protect our national security 
far better than we are currently able to give them under our 
current Federal law enforcement personnel system. And we owe 
the American public the confidence that H.R. 1676 would 
provide.
    Over the long term, our Federal law enforcement remains 
capable and effective in defending the American people from 
terrorists and protecting all of you from criminals. Thank you 
for the opportunity.
    Mrs. Davis of Virginia. Thank you, Ms. Savage.
    [The prepared statement of Ms. Savage follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.153
    
    [GRAPHIC] [TIFF OMITTED] T0887.154
    
    [GRAPHIC] [TIFF OMITTED] T0887.155
    
    [GRAPHIC] [TIFF OMITTED] T0887.156
    
    [GRAPHIC] [TIFF OMITTED] T0887.157
    
    [GRAPHIC] [TIFF OMITTED] T0887.158
    
    [GRAPHIC] [TIFF OMITTED] T0887.159
    
    [GRAPHIC] [TIFF OMITTED] T0887.160
    
    [GRAPHIC] [TIFF OMITTED] T0887.161
    
    [GRAPHIC] [TIFF OMITTED] T0887.162
    
    [GRAPHIC] [TIFF OMITTED] T0887.163
    
    Mrs. Davis of Virginia. Next we will hear from Richard 
Gallo from the Federal Law Enforcement Officers Association. 
And, Mr. Gallo, I believe first that Mrs. Maloney from New York 
would like to welcome you.
    Mrs. Maloney. Thank you so much, Madam Chairwoman, and 
Madam Chairwoman and Chairwoman for calling this, and I thank 
all of you for service and for what you have done for us. And I 
particularly want to welcome Richard Gallo, who is a 
constituent and past president of the Federal Law Enforcement 
Officers Association. And I join with all of my constituents in 
thanking you and all of Federal law, and, I would add, city and 
State law, for the heroic work that you do every day and the 
heroic work that you did particularly after September 11. I 
certainly support any initiative that advances pay, uniformed 
pay, and works to help our law enforcement officials.
    And I am here to welcome you and introduce you. I look 
forward to your testimony. Thank you for being here. Thank you 
for your service.
    Mrs. Davis of Virginia. Thank you, Mrs. Maloney.
    Mr. Gallo, you are recognized for 5 minutes.
    Mr. Gallo. Thank you, Chairwoman Davis. And I would like to 
thank you for your leadership on this issue as well and for 
giving us the opportunity to discuss H.R. 2442. And I hope I 
get your attention when I say H.R. 2442, not H.R. 466 or 1676, 
because H.R. 2442 was the last of several bills introduced in 
the 101st Congress back in 1990. H.R. 2442 was the result of 
hearings held by the National Advisory Commission on Law 
Enforcement created by the 100th Congress.
    The National Advisory Commission on Law Enforcement was 
staffed by three U.S. Senators, five Members of the House of 
Representatives, the U.S. Attorney General, the Treasury 
Secretary, the Director of OPM, the Director of FBI, the 
Administrator of DEA, two Inspector Generals, and FLEOA. H.R. 
2442 was debated in front of this committee. In fact, on March 
28, 1990, FLEOA testified in front of the House of 
Representatives Committee on Post Office and Civil Service, 
Subcommittee on Compensation and Employees Benefits, in favor 
and support of H.R. 2442, which was signed into law by the 
President on November 5, 1990.
    That law called for a separate pay and classification 
system to be set up by OPM. In fact, the wording was, ``OPM 
shall create a separate pay and classification system.'' And 
when you all use that term ``shall create,'' it doesn't mean 
that you are giving them wiggle room. ``OPM shall create a 
separate pay and classification system for Federal law 
enforcement officers.'' That was the law that you all passed, 
that the President signed, that OPM has ignored. Here we are 13 
years later, after having to watch the work of that good 
Congress erode away, the work of that Commission erode away, 
and we are discussing the same issue.
    Our written testimony covers in greater detail the points 
that we believe are important, points too numerous to cover 
within a 5-minute presentation. But we should not be able to 
tell you that there are first-year Federal law enforcement 
officers who qualify for public assistance, or that there are 
Federal law enforcement officers who commute before dawn to the 
city in which they work in and then sleep in their cars to 
catch up on their sleep before reporting to work, because they 
live so far away to afford a house for their family and their 
children they have no other alternative; or that we hire and 
train people for the Federal law enforcement occupation but 
then they resign in order to go to work for a State or local 
law enforcement agency so they can make a better salary and 
have better benefits. These things are happening.
    We should not be able to tell you that law enforcement 
officers have been moved by their headquarters from one city to 
the other, the entire office has been moved from one city to 
another in order to place that entire office within a higher 
locality pay area. This was done when the FBI moved their 
office in Concord, NH to Manchester, NH. The FBI moved their 
offices to Concord, NH because that was in the RUS pay 
district. They moved them to Manchester, NH because that 
qualified for the Boston pay district.
    But all these things have happened. If you look at the USA 
Jobs Web site, there is an announcement requesting applicants 
for positions as a special agent with the Secret Service, and 
the closing date on this announcement is in December in the 
year 2099. They can't get enough applicants for the job because 
of the starting pay.
    In the 107th Congress, H.R. 466 was known as H.R. 3794, 
with a companion bill in the other Chamber offering partial pay 
increases and the locality pay adjustments paid to the group of 
Federal law enforcement officers that Congress singled out in 
H.R. 2442 back in 1990, that law that was passed. In the 
closing days of the 107th Congress, there were attempts to 
attach it to the legislation that created Homeland Security. 
The obstacle that emerged in the other Chamber centered around 
the fact that H.R. 3794 only covered 18 pay districts, leaving 
some Senators feeling that Federal law enforcement officers in 
their States which were not among the 18 pay districts may be 
compromised by a mass exodus of senior agents to other pay 
districts. And remember, this does happen. FBI moved their 
offices from Concord to New Hampshire. So even headquarters 
does this, much less the agents themselves who are looking for 
their best high three.
    Some Senators from both sides of the aisle informed us that 
they were hesitant to support the bill. Other Senators, and 
again from both sides of the aisle, informed us that they would 
make sure that the bill would be tabled unless it included 
their States, because they felt that the bill as written, only 
covering several pay districts not including their own States, 
would impact the effect of law enforcement, the ability of law 
enforcement in their State.
    This year's answers to last year's concerns, bipartisan 
concerns, was to increase the adjustment for some districts and 
to cut the adjustment for some districts in order to include 
the remaining districts without blowing the budget, and the 
result was H.R. 466.
    And we truly appreciate Representative Peter King's--a 
Notre Dame graduate, I might add--leadership on this issue. 
H.R. 466 offers partial pay adjustments for all 32 districts 
and a section originally written by Senator Joseph Biden's 
staff for FLEOA to fence off LEAP pay from counting toward the 
pay cap.
    We are pleased that both Chairs, Vice Chairs, ranking 
members, and actually majority of both subcommittees are 
cosponsors of H.R. 466, and also pleased to see that majorities 
of Republicans and Democrats of the full committee are 
cosponsoring H.R. 466. And, last, we are pleased to note the 
majority of Representatives in Congress have already 
cosponsored H.R. 466 with over 225 cosponsors now.
    In closing, FLEOA strongly supports H.R. 466; however, if 
the committee during markup attaches the provision calling for 
the 1993 OPM study to be revisited, we would not object in the 
least, since in the other Chamber, the bill that mirrors H.R. 
466 includes that section, and that already has 37 co-sponsors.
    Let us go to markup. Let us get the--let us hammer out the 
differences in markup, and let us get a bill that can pass not 
only this Chamber but the other Chamber and get to the 
President's desk this year.
    I will answer any questions, of course, that this 
subcommittee may have. Thank you very much.
    Mrs. Davis of Virginia. Thank you, Mr. Gallo.
    [The prepared statement of Mr. Gallo follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.164
    
    [GRAPHIC] [TIFF OMITTED] T0887.165
    
    [GRAPHIC] [TIFF OMITTED] T0887.166
    
    [GRAPHIC] [TIFF OMITTED] T0887.167
    
    [GRAPHIC] [TIFF OMITTED] T0887.168
    
    [GRAPHIC] [TIFF OMITTED] T0887.169
    
    [GRAPHIC] [TIFF OMITTED] T0887.170
    
    [GRAPHIC] [TIFF OMITTED] T0887.171
    
    [GRAPHIC] [TIFF OMITTED] T0887.172
    
    [GRAPHIC] [TIFF OMITTED] T0887.173
    
    [GRAPHIC] [TIFF OMITTED] T0887.174
    
    [GRAPHIC] [TIFF OMITTED] T0887.175
    
    Mrs. Davis of Virginia. I would now like to recognize 
Ignatius Gentile, representing Immigration and Naturalization 
Service Employees. Thank you for being with us today. And you 
are recognized for 5 minutes.
    Mr. Gentile. Thank you, Madam Chairperson, and members of 
the subcommittee. My name, as you know, is Ignatius Gentile. I 
am the president of Council 117 within the Department of 
Homeland Security. And we are with the American Federation of 
Government Employees.
    I have also been employed by the U.S. Immigration Service 
in New York City for over 32 years, serving most of my tenure 
as a deportation officer in New York. Our union represents over 
16,000 inspectors, deportation officers, detention officers, 
special agents, adjudication officers, asylum officers, and 
other support staff.
    Contrary to the myth created during last year's battle over 
work rules at the Department of Homeland Security, our union 
has never been an obstructionist or has ever constrained our 
agency or our new Department in carrying out its critical 
mission. In fact, we play an essential role in examining 
proposals affecting pay benefits, personnel rules, and making 
sure our employees' views are clearly understood. After all, it 
is our employees of this newly formed Department that 
ultimately will determine its success or failure.
    In fiscal year 2002, we inspected almost 70 million air 
travelers at more than 220 airports designated as ports of 
entry [POE], and this was around the United States and abroad. 
Those inspections resulted in the interception of approximately 
6,900 criminal aliens, 2,700 persons being smuggled into the 
United States, and more than 18,000 fraudulent travel documents 
and identification cards. In total, our staff of inspectors 
denied admission to over 208,000 travelers during the air 
inspections at the port of entry in just fiscal year 2002.
    We are here today to talk about the critically important 
pay and benefits issues affecting thousands of our employees 
with the new Department of Homeland Security. These issues are 
important not only because they are the bread-and-butter 
concern to our workers and their families, but also because 
they have a tremendous effect on our employees' morale. One of 
our best measures of measuring our employees' morale is the 
rate of attrition. We commend Representative Filner for his 
longstanding support on this issue, and thank both he and 
Representative McHugh for their efforts.
    Under the current law, the immigrations inspectors are 
treated inequitably. Not only is their pay scale lower than any 
other Federal, State, and local law enforcement agency, but 
they also do not receive, as you are aware of, any law 
enforcement retirement benefits. H.R. 2442 seeks to rectify 
this injustice by granting these officers the same retirement 
benefits received by other Federal law enforcement officers. We 
can see no justification for treating our inspectors as 
anything less than full law enforcement officers.
    Immigration inspectors are regularly put in harm's way, 
which is the reason why they are required to carry a firearm 
and qualify in the usage of that firearm. They have search 
authorities to undertake searches, make arrests, deport aliens. 
Our immigration inspectors also prepare cases for criminal 
prosecution by the U.S. Attorney's Office, including cases 
involving alien smuggling, document fraud, and attempted 
illegal entry. In fact, our inspectors have general arrest 
authority for any offense committed against the United States.
    It has been suggested by some that this legislation is too 
expensive and therefore should not be adopted. Of course, we 
strongly disagree. To date, no study undertaken on H.R. 2442 
has considered the potential saving resulting from a reduced 
training cost. According to an OIG Department of Justice report 
issued in fiscal year 2002, the INS invested over $19 million 
to train approximately 1,000 new inspectors out of its academy. 
We believe that much of that money could have been saved had 
H.R. 2442 been in effect, and therefore should be accounted as 
an offset savings in any future cost studies on the actual 
bill.
    Finally, it bears to note that the Bush administration's 
first appointee as the INS Commissioner, Mr. James Ziglar, 
actively supported law enforcement retirement coverage for our 
immigration inspectors because he felt so strongly that it 
should indeed be provided.
    We as a Nation simply cannot afford to lose our most 
experienced personnel at this time. We need the inspectors' 
instincts, their experience, their eyes trained on thousands of 
people they inspect daily. We need their dedication, 
commitment, and knowledge. We need to treat these dedicated 
employees as they actually are: law enforcement officers.
    The enactment of the Law Enforcement Officers Equity Act 
would be a very important step in that direction.
    In closing, I would like to thank this committee for 
inviting me here today to share my thoughts and my values on 
this vital matter. At this point, I would be happy to respond 
to any of your various inquiries. Thank you.
    Mrs. Davis of Virginia. Thank you, Mr. Gentile.
    [The prepared statement of Mr. Gentile follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.176
    
    [GRAPHIC] [TIFF OMITTED] T0887.177
    
    [GRAPHIC] [TIFF OMITTED] T0887.178
    
    [GRAPHIC] [TIFF OMITTED] T0887.179
    
    [GRAPHIC] [TIFF OMITTED] T0887.180
    
    Mrs. Davis of Virginia. We would like to now recognize 
Louis Cannon of the Fraternal Order of Police. Thank you, Mr. 
Cannon, for being here today. And you are recognized for 5 
minutes.
    Mr. Cannon. Good afternoon, Chairwoman Davis, Chairman 
Souder, and other members present of the two subcommittees. My 
name is Louis Cannon. I am the president of the Fraternal Order 
of Police District of Columbia State Lodge and chairman of the 
National FOP's Federal Officers Committee. On behalf of 
National President Chuck Canterbury, we appreciate this 
opportunity to appear before you here today to discuss our 
views on compensation issues affecting Federal law enforcement 
officers. On a side note, we would also like to thank Chairman 
Souder for his efforts on the House floor yesterday on the CJS 
appropriations bill.
    The Fraternal Order of Police is the Nation's largest law 
enforcement labor organization, with over 306,000 members in 43 
State lodges. Included in that total are more than 25,000 
Federal law enforcement officers, representing agencies from 
each of the three branches of the Federal Government. For our 
organization, the most pressing concern is the continuing 
inequality in retirement benefits afforded to Federal officers 
under the law enforcement officer or 6(c) retirement system. 
And it is on this issue that I will primarily focus my remarks.
    Each and every day, tens of thousands of Federal police 
officers and other law enforcement employees place their lives 
on the line in the defense of Federal employees, the general 
public, and the institutions that are the foundations of our 
democracy. They serve as our Federal Government's first 
responders, and are asked to face the same hazards as their 
State and local counterparts. And when one of them falls in the 
line of duty, their names are added to the National Law 
Enforcement Officers Memorial here in Washington.
    They are also the brave men and women who were among the 
first to respond to the devastating terrorist attacks in New 
York City and the Pentagon. Yet these same individuals, despite 
carrying out their sworn duty to protect and serve with honor 
and dedication, are consistently denied equal status with their 
Federal law enforcement colleagues under the law enforcement 
officer retirement provisions of Chapters 83 and 84 of Title 5 
U.S. Code. Their exclusion under current law and the 
regulations of OPM is not based on the duties that they are 
asked to perform, forcing the officers to constantly appeal to 
OPM or to bring a case before the Merit Systems Protection 
Board to fight for the status to which they are already 
entitled.
    That is why the Fraternal Order of Police strongly supports 
amending current law to clarify the definition of law 
enforcement officer and ensure the inclusion of Federal police 
officers and others whose primary duties are law enforcement 
and who are currently denied LEO retirement coverage. And that 
is why we support H.R. 2442, the Law Enforcement Officers 
Equity Act introduced by Representatives Filner and McHugh last 
month.
    The FOP believes that there are three primary reasons to 
enact H.R. 2442, and to reform the current definition of who is 
and is not classified as law enforcement officer for retirement 
purposes.
    First, the extension of LEO status will improve the 
recruitment and retention efforts of law enforcement agencies 
throughout the Federal Government. Perhaps the most pressing 
problem facing Federal law enforcement agencies today is the 
ability to recruit qualified applicants for the police and 
investigative positions, and the challenge of retaining fully 
trained and qualified personnel in the face of a competitive 
market for the services they perform.
    However, the lack of law enforcement retirement coverage is 
one of the primary incentives for police officers and others to 
seek employment with other agencies. In the Washington, DC, 
area alone, there are scores of Federal, State, and local 
agencies for which an individual seeking a career in law 
enforcement can choose from without the inconvenience of having 
to relocate his or her family.
    Next, H.R. 2442 will bring equity to the various law 
enforcement and police occupations. The major duties of the 083 
Federal police position, whether or not they are currently 
covered by law enforcement retirement, are indistinguishable 
from those of State and local law enforcement. However, there 
are not enough to distinguish many Federal law enforcement 
officers from other government employees and other retirement 
laws.
    The Office of Personnel Management reached a similar 
conclusion in a 1993 report to Congress, stating that it is 
undeniable that uniformed police work is considered a core law 
enforcement function outside of the Federal Government. And the 
Federal Government has also recognized it is law enforcement by 
putting some Federal police positions in the definition of law 
enforcement officer for pay purposes under current law.
    While not explicitly recommending the extension of LEO 
retirement coverage, OPM did note that as they studied law 
enforcement in protective occupations and worked on the design 
of a separate job evaluation pay system, it became clear that a 
different definition of law enforcement officer would be needed 
for system coverage purposes.
    Finally, passage of this legislation will permanently end 
the confusion regarding which requirements qualify law 
enforcement employees for law enforcement status. This issue of 
who is and who is not a law enforcement officer for retirement 
purposes is a source of great confusion for the thousands of 
police officers employed by the Federal Government. For them, 
achieving law enforcement status is not about bigger paychecks 
or enhanced benefits, but about achieving parity with their 
fellow officers. They have trouble comprehending how they can 
perform the same functions as their LEO-covered Federal 
counterparts, yet receive unequal benefits.
    When a Federal law enforcement officer falls in the line of 
duty, the government does not look at whether or not they were 
considered LEO or non-LEO for the purposes of providing public 
safety officer benefits to their family. It is only within the 
Federal Government that an employee who performs basic law 
enforcement functions will be considered something other than a 
law enforcement officer.
    Today, all Federal law enforcement officers, regardless of 
their classification and grade, must shoulder greater burdens 
in the post-September 11th world. These brave men and women are 
now asked to serve as first responders, to be prepared and 
capable of responding to incidents and situations which 
threaten our Nation, and to be on the front line in the fight 
to improve Homeland Security.
    Amending current law to clarify the definition of law 
enforcement officer and ensuring the inclusion of Federal 
police officers and others who are denied coverage will improve 
the recruitment and retention of qualified officers, ensure 
equity among law enforcement employees, and eliminate the 
confusion surrounding the current definition. But more 
importantly, the passage of the Law Enforcement Officers Equity 
Act would afford Congress the opportunity to do what is right 
and what is needed to ensure that the Federal Government is 
protected by the most highly trained, qualified, and 
professional corps of law enforcement officers available.
    In conclusion, the FOP does not believe that now is the 
time for enacting measures which have the effect of continuing 
disparities which exist between and among Federal law 
enforcement employees or which allow one agency to recruit 
officers at the expense of another. Rather, it is time for 
those which recognize the important work performed by these 
brave men and women throughout the Federal Government and which 
will attract the best and brightest to Federal law enforcement 
work.
    Thank you very much, Chairwoman Davis and Chairman Souder, 
for the opportunity to appear before you today. We very much 
appreciate the support of yourself, Madam Chairwoman Davis, and 
numerous members of both subcommittees who were cosponsors of 
the Law Enforcement Officers Equity Act in the 107th Congress.
    I look forward to working with the subcommittees to advance 
legislation, and I would be pleased to answer any questions.
    Mrs. Davis of Virginia. Thank you, Mr. Cannon.
    [The prepared statement of Mr. Cannon follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.181
    
    [GRAPHIC] [TIFF OMITTED] T0887.182
    
    [GRAPHIC] [TIFF OMITTED] T0887.183
    
    [GRAPHIC] [TIFF OMITTED] T0887.184
    
    [GRAPHIC] [TIFF OMITTED] T0887.185
    
    [GRAPHIC] [TIFF OMITTED] T0887.186
    
    [GRAPHIC] [TIFF OMITTED] T0887.187
    
    [GRAPHIC] [TIFF OMITTED] T0887.188
    
    [GRAPHIC] [TIFF OMITTED] T0887.189
    
    [GRAPHIC] [TIFF OMITTED] T0887.190
    
    [GRAPHIC] [TIFF OMITTED] T0887.191
    
    Mrs. Davis of Virginia. Mr. Bonner, we haven't forgotten 
you, but I would need you to stand so I could swear you in.
    [Witness sworn.]
    Mrs. Davis of Virginia. Let the record reflect that the 
witness has answered in the affirmative. And, Mr. Bonner, Mr. 
T.J. Bonner from the National Border Patrol Council, we welcome 
you. And you are recognized for 5 minutes.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Bonner. Thank you, Madam Chairwoman, Mr. Chairman, 
other members of the subcommittees. On behalf of the 9,000 
frontline law enforcement officers represented by the National 
Border Patrol Council, we welcome this opportunity to present 
our views concerning issues that affect every aspect of our 
working lives.
    While there is a clear consensus that we need to attract 
and retain the best and the brightest employees in order to 
safeguard our Nation's liberty, there is a considerable amount 
of disagreement concerning how best to achieve this goal. In 
the brief time allotted, I would like to share the perspective 
of frontline employees.
    We believe that any pay and personnel systems that are 
developed must follow three basic principles: First, employees 
must be treated fairly and equitably. Second, their wisdom and 
experience must be valued, solicited, and heeded. Finally, they 
must be adequately and equitably compensated for the essential 
services that they provide.
    Deviating from these commonsense principles will make it 
difficult, if not impossible, to attract and retain the best 
and the brightest employees, and should be avoided at all 
costs.
    For example, depriving employees of a meaningful voice and 
input into their conditions of employment by limiting or 
eliminating their collective bargaining rights ignores the 
wealth of knowledge and experience that they possess. Since 
Federal employees cannot strike or bargain over wages or 
benefits, the only topics left on the bargaining table are 
working conditions. Denying these employees a meaningful voice 
in these matters is foolish and counterproductive, and results 
in poor morale as well as ill-advised policies generated by 
managers far removed from the front lines.
    Grievance and appeals processes that fail to provide for 
review of management decisions by independent neutrals only 
exacerbate inequities and demoralize the work force, chasing 
away good workers. Employees are not willing to serve their 
entire career under the threat of being fired without cause at 
the whim of a manager or political appointee, nor are they 
willing to work under a system that denies them the basic right 
to contest such actions in a fair forum. Pay banding systems 
that do not have fair and easily understood rules, 
incorporating the principle of equal pay for substantially 
equal work, create inequities that are extremely damaging to 
morale and the spirit of teamwork that is so essential in law 
enforcement.
    So-called pay-for-performance, which is actually pay based 
upon favoritism in many cases, suffers from the same flaws and 
yields the same disastrous results. Pay systems that deny 
employees time-and-a-half compensation for their overtime work, 
such as the Law Enforcement Officers Availability Pay Act of 
1994, are a prime source of dissatisfaction and cause good 
employees to seek jobs with other agencies.
    The relative ease of recruiting in an economic slump should 
not deceive anyone into believing that this meets our goal of 
attracting highly qualified law enforcement officers who will 
remain in the service of our Nation for 20 to 30 years. Hiring 
desperate people who are looking to make ends meet until they 
can find a career that genuinely interests them serves neither 
the employees nor the public well.
    Federal law enforcement officers are in the midst of a 
human capital crisis. Employees are voting with their feet in 
record numbers, and there is great cause for alarm. Last fiscal 
year, for example, one out of every five Border Patrol agents 
left the agency for one reason or another.
    There are four major reasons that employees are abandoning 
careers in Federal law enforcement: lack of job satisfaction; 
low pay compared to that of other law enforcement officers 
performing similar tasks; lack of upward and lateral mobility; 
and poor working conditions. Unless all of these issues are 
addressed simultaneously, attrition will remain unacceptably 
high.
    Frontline employees recognize that the current system is 
far from perfect and is in need of reform. They are also wise 
enough to know that it could easily be made worse, and 
therefore do not embrace change for the sake of change. They 
understand that in order to effectuate positive change, reform 
needs to be accomplished in accordance with the principles 
outlined herein.
    Salaries of employees in high-cost-of-living areas must be 
commensurate with those of other law enforcement officers in 
those areas if the Federal Government hopes to remain 
competitive. Law enforcement retirement coverage needs to be 
extended to all of those who enforce our Nation's laws, 
including legacy immigration and Customs inspectors, if we want 
to attract the best and the brightest to these important jobs.
    In order to convince people to choose a career in Federal 
law enforcement, they need to be provided with challenging and 
financially rewarding career opportunities. Choice promotions 
need to be offered to existing employees before outside 
applicants are considered.
    In sum, any changes to personnel laws, rules, and 
regulations must be viewed through the prism of the commonsense 
principles outlined herein, and must recognize that the goal of 
a first-class work force cannot be achieved if workers are 
treated in a second-class manner.
    Thank you. And I would be happy to answer any questions you 
might have.
    Mrs. Davis of Virginia. Thank you, Mr. Bonner.
    [The prepared statement of Mr. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.192
    
    [GRAPHIC] [TIFF OMITTED] T0887.193
    
    [GRAPHIC] [TIFF OMITTED] T0887.194
    
    [GRAPHIC] [TIFF OMITTED] T0887.195
    
    [GRAPHIC] [TIFF OMITTED] T0887.196
    
    Mrs. Davis of Virginia. And thank you to all of our guests 
today for being so patient with us. And they are telling us we 
may have a vote here in the next 15 minutes or so, so we will 
have to see what happens.
    I would like to yield now to Mr. Souder.
    Mr. Souder. Just a couple of brief things.
    First, I want to thank, Mr. Cannon, the FOP, for your 
letter in our efforts on trying to stop this back-door 
legalization of marijuana. We have that; that will be one of 
not the immediate next series but the next series after that of 
votes, and hopefully we will prevail, thanks a lot to your 
help, the narcotics officers of the United States, and others 
who are standing firm as people try to weaken the laws and 
increase the terror in our streets.
    And we want to thank all of your agencies, because you are 
front line in our defense. Diana Dean and the great Customs 
Inspectors; the people in the Border Patrol are out there, 
relatively boring job much of the time, watching for people 
coming across illegally and the drug runs that come sometimes. 
There was one done by cells with seven SUVs tearing in, 
planning to shoot their way through. To argue INS agents, who 
are immigration authorities, trying to check for the illegal 
people coming through, never knowing increasingly in this day 
and age if they are al Qaeda or just a random poor person 
trying to find a job, there is a big difference in that risk. 
Much like a police officer going to a domestic disturbance, 
when you go in there and then they are fleeing, you don't know 
whether they have a gun, a knife, or what exactly you are 
dealing with, whether they are on drugs or alcohol. And the 
risk that everybody takes is very much appreciated by all of 
us.
    Mr. Gallo's testimony jogged me. First, I want to thank you 
for, in particular, acknowledging my colleague's graduation 
from the premier university of the United States, Notre Dame, 
that--there aren't too many of us Nomers here, but we are a 
stick-together type. But you triggered a question in my mind, 
and I thought it was a very interesting layout of the history 
as we have tried to work through this.
    In locality pay, does locality pay, I presume, get counted 
into the retirement base?
    Mr. Gallo. Yes, it does, sir.
    Mr. Souder. Because one of the problems I potentially see 
in moving this, because I thought it was really good in reading 
through your full testimony about what we run into in trying to 
pass this, and whether people would move from other places--
particularly to use the word ``veteran,'' people in the 
agencies would move to places of high locality pay. Therefore, 
the 18 areas not covered were concerned about the locality pay 
and losing their senior people. And that is, is that locality 
is pay to really address what you are dealing with in trying to 
come up with housing and costs when you are moving into an 
area. But if it was really just locality pay, nobody would 
transfer over just to get the pay.
    Mr. Gallo. That's correct.
    Mr. Souder. So it's retirement, because it's based on the 
previous, if you're in the old system, what, top 3 years? That 
if even if the locality pay merely was to equalize, it really 
wouldn't be equal because your retirement would go up.
    Mr. Gallo. That's correct.
    Mr. Souder. So in trying to figure out how to work this, 
that may be--have you addressed that before? Should locality 
pay not count in the retirement and, rather, have a base that 
is based on your senior level of activity and locality pay is 
pulled out of that retirement system? Or would you not adjust 
the locality pay quite as much because it is going to help you 
in retirement? Because that is not a locality adjustment, then, 
if there is an incentive to move to another area.
    Mr. Gallo. Sir, in order to get that locality pay or the 
little bit extra, right now the RUS pay district is at 9 
percent.
    Mr. Souder. Let me first acknowledge that it is way off 
now. That is not the current, currently. But if we try to 
adjust it, should that be calculated in the adjustment if we 
try to legitimately? Because you could see from the salary 
differences, I mean, some areas are 78,000 for local police 
officers and others were 40-something.
    So, in the current system it is totally broken. But as we 
look to revise it and if we were actually looking to make the 
playing field level, how do we calculate that retirement?
    Mr. Gallo. That is one of the reasons why all the districts 
were included, so it wouldn't be such a huge disparity between 
the RUS and the San Francisco and the New York. We cut down 
some of those areas and we raised the RUS a little bit so the 
disparity wouldn't be as pronounced.
    But there is a big issue in reference to that, Congressman, 
in reference to Alaska and Hawaii, because they are going to 
get a 25 percent COLA. They don't get any locality pay; they 
get a 25 percent cost-of-living adjustment, and it doesn't 
count at all toward your retirement. And the Congressmen from 
Hawaii and the Senators from Hawaii have pointed out that a lot 
of their 48-year-of-age agents, because we get to retire at 50 
years of age or 20 years in, are transferring to Los Angeles 
for their last 3 years, because the 17 percent locality pay in 
Los Angeles counts toward your retirement but your 25 percent 
COLA in Hawaii does not. And that's something that I guess we 
all have to look at in markup, to maybe make it a dollar-for-
dollar conversion that the COLA would count. Because, again, if 
you raise Los Angeles up another--I think both bills have them 
going up more or less to 10 percent. Instead of being 17, it 
will be near 27 under Congressman Rogers' bill and Congressman 
King's bill. A 27 percent difference between Honolulu and L.A. 
may trigger a one-way ticket to the mainland for your last 3 
years. And here you are with your 20 years of service or your 
25 years of service, entering your last 3, and the citizens of 
Honolulu are deprived of your services, and in fact you are 
replaced with somebody else who is less senior, actually.
    So that may be something for markup, sir, definitely.
    Mr. Souder. Thank you.
    Mrs. Davis of Virginia. Thank you, sir.
    Representative Van Hollen was supposed to be one of our 
witnesses for our first panel and wasn't able to be here. So I 
am going to go to him now, and I am going to give you time to 
do your opening statement and then ask questions.

    STATEMENT OF HON. CHRIS VAN HOLLEN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Van Hollen. Thank you very much, Madam Chairwoman. And 
thank you, Chairman Souder, as well. And thank all the 
witnesses for your testimony.
    And, Madam Chairwoman, I will be brief if I could just 
include my full statement in the record. And I appreciate the 
opportunity to testify on this legislation, H.R. 2276, the 
National Institutes of Health security bill. And I want to 
commend both Chairwoman Davis and Chairman Souder for taking 
the initiative on this whole set of Federal law enforcement 
legislation, and thank you for including this among them.
    And I also want to thank the chairman and ranking member of 
the full committee for being cosponsors of this legislation and 
the chairman and ranking member of the Civil Service 
Subcommittee for their cosponsorship. I appreciate this being a 
bipartisan effort.
    There is a heightened need to enact this bill dealing with 
NIH because of the nature of--the sensitive nature of the work 
done at NIH makes it a potential target for terrorist 
activities in this post-September 11 environment.
    As the country's premier biomedical research facility, NIH 
is soon going to become the home, or is expected to be the home 
of the BioShield initiative. And this Congress just passed the 
BioShield legislation recently out of the House on a bipartisan 
basis.
    In response to September 11, 2001, the Congress increased 
the authorized size of the NIH police force from 64 officers to 
85 officers. Unfortunately, that force has never come close to 
reaching that level of manpower.
    And it's due to the current pay system and the retirement 
system and this bill is designed to address those shortcomings. 
The NIH Police are one of the lowest paid in the Washington 
metropolitan area. Making matters worse, they are not 
classified as Federal law enforcement officers and thereby they 
are denied the retirement benefits and the distinction that 
affords to others. The result has been a very low retention 
rate for officers and difficulty with recruitment. Even if you 
exclude retirement, there's been a 77 percent annual attrition 
rate at NIH. And as a result of staffing shortages, valuable 
investments have been lost. For example, NIH was forced to 
spend almost $2 million in overtime costs in fiscal year 2002.
    In addition, every time a police officer leaves NIH, we 
lose the investment that we have made in training that officer. 
Again, for example, NIH spent over $200,000 training the 20 
officers that left in fiscal year 2002. Thirty-four officers 
have left since September 11, 2001 for better pay and benefits 
elsewhere.
    Let me just give you very few examples of the other 
consequences of the understaffing. There has been an inability 
to fill the specialty units such as the HAZMAT response, which 
is critical for responding to possible biological chemical and 
radioactive terrorist attacks. There has been an inability to 
provide routine and specialty training, which includes learning 
to respond to terrorist attacks or threats. When under high 
alert levels, NIH officers--under the protocol, they are 
required to assume additional responsibilities which they are 
unable to meet. They have been unable to patrol off-campus 
facilities even though that's required when you go to the 
higher levels. They have been forced to work 14-hour days, 6 to 
7 days a week just to meet the minimal law enforcement and 
security responsibilities.
    Those are some of the problems that have been associated 
with the current system. This legislation would change that by 
elevating their status, putting them on a status similar to 
other Federal law enforcement agents. It also provides some 
change in their jurisdiction. Right now, they're not allowed to 
go off NIH campus and do not have any kind of arrest authority 
even at their annexes or facilities that are off the main 
campus. In Bethesda, this legislation would expand that 
jurisdiction. So it tries to address a number of issues that I 
think are important. These are important issues for security 
before September 11. They become even more important since 
September 11, particularly given the sensitive nature of work 
that's going on at NIH in the proposed new location of the 
biomedical--excuse me, the biodefense lab at that particular 
site, which I have other concerns with, but certainly that is 
the expected home of that lab at this time.
    So I thank you for the opportunity to testify, and I hope 
that we can include this in the final package that this 
committee reports. Thank you.
    [The prepared statement of Hon. Chris Van Hollen follows:]

    [GRAPHIC] [TIFF OMITTED] T0887.200
    
    [GRAPHIC] [TIFF OMITTED] T0887.201
    
    [GRAPHIC] [TIFF OMITTED] T0887.202
    
    Mrs. Davis of Virginia. Thank you, Mr. Van Hollen, you are 
welcome to ask questions of the panelists.
    Mr. Van Hollen. I have no questions at this time.
    Mrs. Davis of Virginia. Mr. Souder, do you have any others?
    Mrs. Davis of Virginia. Then you get me. This is for the 
FBI Agents Association. My subcommittee staff, on their trip 
out West, heard some very compelling stories as we heard from 
Representative Mike Rogers earlier about the high cost of 
living areas, and their inability to buy homes, and as you 
heard him testify, you know having to put their house payments 
on hold and different things. What has been your experience in 
working with the FBI on issues involving employee pay?
    Ms. Savage. The most critical issue we're facing right now 
is the disparity in law enforcement pay and FBI agent pay 
around the country in high-cost living areas. Just 
overwhelmingly the agents that are assigned in some of these 
high cost of living areas, especially at the more inexperienced 
levels because their pay is lower, are scratching and clawing 
to get out of those areas by any way they can. They are trying 
to transfer through specialty transfers to hardship areas where 
they didn't have a chance to move to more desirable locations 
because they cannot meet their basic family needs. They are 
going into debt and unable to pay for retirement, unable to 
become property owners of any sort, unable to adequately pay 
for their families basic expenses. Like I said, when they have 
to go on--I worked with an agent who had to go on public 
assistance just to feed his family. They are having to go into 
military housing and happy to do so, but it's got to be a 
temporary-type move.
    Mrs. Davis of Virginia. How often do you think this 
happens? Is it on a regular basis?
    Ms. Savage. Concentrated in a number of cities, New York, 
San Francisco is probably the most extreme right now because 
their cost of living is probably the highest in the Nation or 
one of the highest in the Nation. We have, you know, obviously 
significant criminal impact in New York, San Francisco, LA and 
those are probably the very worst, although there are others in 
significant need.
    We face a huge anomaly because of the wage-base system that 
is currently in effect for general schedules. Basically, the 
Office of Personnel Management does studies periodically and 
probably not often enough, and they take a look at what wages 
are paid to an individual in a comparable occupation. Well, 
it's got a bifurcated problem, part of the problem they are 
comparing an FBI agent with advanced degrees and specialized 
skills with that of a deputy sheriff. And not that we don't 
appreciate and understand local law enforcement, but the type 
of skill level and education level, there is usually a 
tremendous disparity and that doesn't work. And also we hire as 
well as most Federal law enforcement, we hire on a national 
basis. We hire our agents. We send them to a training academy 
for 16 weeks, and then we may hire someone from Omaha, and we 
air drop them into San Francisco, where they have no real say 
in the matter.
    So they're coming in from one area and then being 
transferred into another where they stay and be assigned for a 
significant length of time until they can get their way out of 
there. Increasingly, even though they love the work, have high 
morale and love being an FBI agent, that's not the issue. 
They're going broke, and they're trying to find any way out of 
there. So those officers are increasingly inexperienced, even 
when we have an inexperienced work force in Federal law 
enforcement some of these critical offices have an even--they 
have an even less of an experienced work force than anywhere 
else. And they're trying to get into other areas that based on 
the wage-base system--you know, our highest-paid agents just 
about in the country are in Houston. And some of the other 
areas that they're trying to get to, their basic standard of 
living can be much much higher because dollars only mean what 
goods and services they can buy. And in San Francisco, 
increasingly, the other area I mentioned San Francisco, New 
York, LA and those other cities I have left off, but an 
increasing problem is Washington, DC. And it just exploding in 
costs and it's very, very important for us to be able to 
attract our more senior and experienced agents into the 
Washington, DC, headquarters arena.
    Mrs. Davis of Virginia. When you say Washington, DC, are 
you meaning Washington, DC?
    Ms. Savage. The whole metropolitan--the commuting area 
where they can afford to buy is far out in Maryland, far out in 
Virginia.
    Mrs. Davis of Virginia. Representative Rogers made a 
comment about someone from Quantico. Is Quantico based on D.C. 
cost of living?
    Ms. Savage. All included in the same metropolitan 
statistical area. Because they want to look at what is the 
commuting range, they just can't base it on what it may cost 
for someone to live at 10 and Pennsylvania Avenue because 
there's no housing there. They have to come and work there so 
they may have to live in Fredericksburg or far out in Maryland 
and they're having a longer and longer commute, maybe 1\1/2\ 
hours each way to get in here, but you still have to look at 
what their cost of living and even the OPM system how it works 
now based on wage rates, it's based on--that metropolitan 
statistical area is based on commuting rates because they 
recognize that. So that's why I say someone assigned to 
Washington and that's one of the major problems we have, 
because there's no incentive. They're going to put their family 
through tremendous financial hardship in order to raise their 
hand and be a law enforcement leader. And that we need not only 
good agents but we tremendously need the best and the brightest 
within our organizations to step up into leadership positions. 
And those leadership positions require that the individuals be 
well rounded and have experience not only in the field but they 
have to have experience at our headquarters and inside the 
Beltway to understand how government works and how they can 
more effectively go out and help their field office.
    Mrs. Davis of Virginia. My time is up. Mark, do you have 
anything else?
    I have one here that I am supposed to ask--never mind that 
was for the other panel.
    Bear with me, I am going to recognize our ranking member on 
the Civil Service Subcommittee, Mr. Danny Davis, and see if he 
has an opening statement. Any comment?
    Well, I would like to thank you all for being here. We may 
have questions as time goes along and thank you so much for 
your patience and we actually made it without having to make 
you wait again. But thank you again for coming and appreciate 
it and hope we can work with each and every one to try and get 
something passed in the near future to do something to correct 
the disparities and the inequities that we have with our law 
enforcement personnel. Thank you all for coming.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Danny K. Davis and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T0887.197

[GRAPHIC] [TIFF OMITTED] T0887.198

[GRAPHIC] [TIFF OMITTED] T0887.199

[GRAPHIC] [TIFF OMITTED] T0887.203

[GRAPHIC] [TIFF OMITTED] T0887.204

[GRAPHIC] [TIFF OMITTED] T0887.205

[GRAPHIC] [TIFF OMITTED] T0887.206

[GRAPHIC] [TIFF OMITTED] T0887.207

[GRAPHIC] [TIFF OMITTED] T0887.208

[GRAPHIC] [TIFF OMITTED] T0887.209

[GRAPHIC] [TIFF OMITTED] T0887.210

[GRAPHIC] [TIFF OMITTED] T0887.211

[GRAPHIC] [TIFF OMITTED] T0887.212

[GRAPHIC] [TIFF OMITTED] T0887.213

[GRAPHIC] [TIFF OMITTED] T0887.214

[GRAPHIC] [TIFF OMITTED] T0887.215

[GRAPHIC] [TIFF OMITTED] T0887.216

[GRAPHIC] [TIFF OMITTED] T0887.217

[GRAPHIC] [TIFF OMITTED] T0887.218

[GRAPHIC] [TIFF OMITTED] T0887.219

[GRAPHIC] [TIFF OMITTED] T0887.220

[GRAPHIC] [TIFF OMITTED] T0887.221

[GRAPHIC] [TIFF OMITTED] T0887.222

[GRAPHIC] [TIFF OMITTED] T0887.223

[GRAPHIC] [TIFF OMITTED] T0887.224

[GRAPHIC] [TIFF OMITTED] T0887.225

[GRAPHIC] [TIFF OMITTED] T0887.226

[GRAPHIC] [TIFF OMITTED] T0887.227

[GRAPHIC] [TIFF OMITTED] T0887.228

[GRAPHIC] [TIFF OMITTED] T0887.229

[GRAPHIC] [TIFF OMITTED] T0887.230

[GRAPHIC] [TIFF OMITTED] T0887.231

[GRAPHIC] [TIFF OMITTED] T0887.232

[GRAPHIC] [TIFF OMITTED] T0887.233

[GRAPHIC] [TIFF OMITTED] T0887.234


</pre></body></html>
